<html>
<title> - CHILD LABOR ENFORCEMENT: ARE WE ADEQUATELY PROTECTING OUR CHILDREN?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  CHILD LABOR ENFORCEMENT: ARE WE ADEQUATELY PROTECTING OUR CHILDREN?

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 23, 2008

                               __________

                           Serial No. 110-111

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

44-562 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Donald M. Payne, New Jersey          Joe Wilson, South Carolina,
Timothy H. Bishop, New York            Ranking Minority Member
Carol Shea-Porter, New Hampshire     Tom Price, Georgia
Phil Hare, Illinois                  John Kline, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 23, 2008...............................     1

Statement of Members:
    Roybal-Allard, Hon. Lucille, a Representative in Congress 
      from the State of California, prepared statement of........    33
    Wilson, Hon. Joe, ranking minority member, Subcommittee on 
      Workforce Protections......................................     4
        Prepared statement of....................................     5
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Flores, Norma, former child worker...........................    21
        Prepared statement of....................................    23
    Greenberg, Sally, executive director, National Comsumers 
      League.....................................................    16
        Prepared statement of....................................    18
        Additional submissions:
            ``Protecting Working Children in the United States,'' 
              June 2005..........................................    21
            ``The Government's Striking Decline in Child Labor 
              Enforcement Activities,'' September 2006...........    21
    Passantino, Alexander J., Acting Administrator, Wage and Hour 
      Division, U.S. Department of Labor.........................     6
        Prepared statement of....................................     8
    Strauss, David A., executive director, Association of 
      Farmworker Opportunity Programs............................    24
        Prepared statement of....................................    26
        Additional submission:
            ``Children in the Fields,'' May 2007.................    27


  CHILD LABOR ENFORCEMENT: ARE WE ADEQUATELY PROTECTING OUR CHILDREN?

                              ----------                              


                      Tuesday, September 23, 2008

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 11:05 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey, Bishop, Shea-Porter, 
Hare, Wilson, and Kline.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Tico Almeida, Labor Policy Advisor; Jody 
Calemine, Labor Policy Deputy Director; Lynn Dondis, Senior 
Policy Advisor, Subcommittee on Workforce Protections; David 
Hartzler, Systems Administrator; Brian Kennedy, General 
Counsel; Sara Lonardo, Junior Legislative Associate, Labor; Joe 
Novotny, Chief Clerk; Robert Borden, Minority General Counsel; 
Cameron Coursen, Minority Assistant Communications Director; 
Rob Gregg, Minority Senior Legislative Assistant; Jim Paretti, 
Minority Workforce Policy Counsel; Chris Perry, Minority 
Legislative Assistant; Molly McLaughlin Salmi, Minority Deputy 
Director of Workforce Policy; Linda Stevens, Minority Chief 
Clerk/ Assistant to the General Counsel; and Loren Sweatt, 
Minority Professional Staff Member.
    Chairwoman Woolsey. A quorum is present. The hearing of the 
Subcommittee on Workforce Protections will come to order.
    I will present my opening statement, and then Ranking 
Member Wilson will present his.
    Good morning. I want to welcome all of you today for the 
hearing on, ``Child Labor Enforcement: Are We Adequately 
Protecting our Children?''
    What a question that we have to ask in the United States of 
America.
    While we will primarily examine the current state of 
enforcement of our Federal child labor laws by the Department 
of Labor, I am hoping that our witnesses will also address how 
the Fair Labor Standard Act treats children who work in 
agriculture differently than those who work in other 
industries. The fact is that children who work on a farm are 
allowed to work at a younger age, for longer hours, and in more 
hazardous conditions than kids who work at a grocery store. 
This is unacceptable. This difference is a throwback, a 
throwback to another era, when one-quarter of Americans lived 
on family farms, and a majority of agriculture work was 
performed by family members, and children did their part, 
believe me. So while times have changed, and less than 2 
percent of Americans live on farms today, our laws have not.
    As a result of technical advances in the growth of large-
scale agriculture, most children working in the fields are 
hired as laborers on large commercial farms. This is not the 
family farm, and we must be aware of that, and we must deal 
with it to protect kids in a better way.
    Representative Roybal-Allard, Lucille Roybal-Allard, from 
California, has legislation called the CARE Act, and her 
legislation would correct this imbalance by raising protections 
for child farm workers to the same level of children working in 
other industries. I am proud to be a cosponsor of this 
legislation, and we are going to give it serious attention in 
the next Congress.
    Representative Bruce Braley has just introduced a bill to 
increase criminal sanctions on employers who exploit children.
    Last year, I introduced a bipartisan bill, with DOL 
cooperation, called the Child Care Protection Act, which 
increases penalties and establishes a civil penalty for a 
violation which causes the death or serious injury of a child 
laborer. My good friend, Ranking Member Wilson, is an original 
cosponsor of that bill.
    The provisions of the bill were signed into law this year 
as part of the Genetic Information Nondiscrimination Act. Well, 
this is progress. It is moving it along. However, as I said 
when the child labor penalty bill was passed, this is a first 
good step, but additional enforcement measures are needed to 
adequately protect our kids.
    Unfortunately, all the legislation in the world won't help 
if we are not able to adequately enforce our child labor laws. 
It is clear that this administration doesn't seem to be focused 
on enforcing the laws already on the books.
    Let me give you an example. The Wage and Hour Division has 
730, 730 inspectors, for the entire United States of America. 
That is down from 945 in 2001. These inspectors are charged 
with enforcing every aspect of FLSA which, in addition to child 
labor, includes minimum wage and overtime protections. It 
appears from the numbers that the Wage and Hour Division spends 
very little time investigating child labor complaints, as 
opposed to other violations. In 2005, for example, the division 
devoted less than 5 percent of its total investigatory time on 
child labor matters, and only a small fraction of this time was 
devoted to investigating agriculture issues.
    In fiscal year 2007, the DOL uncovered 4,672 children who 
were working in violation of Federal child safety laws. We know 
that that was just the tip of the iceberg. Four years earlier, 
DOL found double that number. I find it almost impossible to 
believe that child labor violations have decreased by half over 
the same time period.
    There are serious violations of child labor laws that need 
DOL attention. For example, on September 9th, the State of Iowa 
filed over 9,000 counts of State child labor law violations at 
Agriprocessors, a meatpacking plant in Pottsville, Iowa. You 
are probably all familiar with Agriprocessors in Iowa. It was 
the site of one of the largest workplace immigration raids in 
U.S. history just recently.
    The State alleges that 32 children, seven of whom were 
under the age of 16, were employed at the plant, in violation 
of the prohibition against children working in meatpacking 
facilities. In addition, these children were exposed to 
dangerous chemicals, and children under 16 were found to be 
illegally operating power machinery, working during prohibited 
hours, and in excess of the hours allowed by law.
    These allegations also appear to be violations of Federal 
law. But while the Immigration and Customs Enforcement, ICE, 
was out in droves, DOL has been missing in action. So it is 
hard to claim adequate enforcement with that kind of a record.
    I am looking forward to hearing Mr. Passantino today, and 
other witnesses, on this issue. Actually, I am really looking 
forward to all of you.
    With that, I defer to Ranking Member Joe Wilson for his 
opening statement.
    [The statement of Ms. Woolsey follows:]

        Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman,
                 Subcommittee on Workforce Protections

    I want to welcome you all today for a hearing on ``Child Labor 
Enforcement: Are We Adequately Protecting Our Children?''
    While we will primarily examine the current state of enforcement of 
our federal child labor laws by the Department of Labor, I hope that 
our witnesses will also address how the Fair Labor Standards Act (FLSA) 
treats children who work in agriculture differently than those who work 
in other industries.
    The fact is that children who work on a farm are allowed to work at 
a younger age, for longer hours and in more hazardous conditions than 
kids who work at a grocery store.
    This is unacceptable.
    This difference is a throwback to another era when one-quarter of 
Americans still lived on family farms and a majority of the 
agricultural work performed by children was done on behalf of their 
family.
    While times have changed and less than 2% of Americans live on 
farms today, our laws have not.
    As a result of technical advances and the growth of large-scale 
agriculture, most children working in the fields are hired as laborers 
on large commercial farms. This is a far cry from the family farm.
    Representative Roybal-Allard's CARE Act, would correct this 
imbalance by raising protections for child farmworkers to the same 
level of children working in other industries.
    I am proud to be a cosponsor of this legislation, which we will 
give serious attention to next year.
    Representative Bruce Braley has just introduced a bill to increase 
criminal sanctions on employers who exploit children.
    Last year I introduced a bi-partisan bill, the Child Care 
Protection Act, which increases penalties and establishes a ($50,000) 
civil penalty for a violation which causes the death or serious injury 
of a child laborer.
    And my good friend, Ranking Member Wilson is an original co-sponsor 
of the bill.    The provisions of the bill were signed into law this year as part 
of the Genetic Information Non-Discrimination Act.
    This is progress.
    However, as I said when the child labor penalty bill was passed, 
this is a first good step, but additional enforcement measures are 
needed to adequately protect our children.
    Unfortunately, all the legislation in the world won't help if we 
are not able to adequately enforce our child labor laws.
    And it is clear that this Administration does not appear to be 
focused on enforcing the laws already on the books.
    Let me give you a few examples:
    The Wage and Hour Division has 730 inspectors for the entire 
country, down from 945 in 2001.
    These inspectors are charged with enforcing all aspects of the 
FLSA, which in addition to child labor, include minimum wage and 
overtime protections.
    And it appears from the numbers that the Wage and Hour Division 
spends little time investigating child labor complaints as opposed to 
other violations.
    In 2005, for example, the Division devoted less than 5 percent of 
its total investigatory time on child labor matters.
    And only a small fraction of this time is devoted to investigations 
in the agricultural sector.
    In FY2007, the DOL uncovered 4,672 children who were working in 
violation of federal child safety laws.
    Four years earlier, DOL found double that number.
    I find it hard to believe that child labor violations have 
decreased by half over that time period.
    There are serious violations of child labor laws that need DOL's 
attention.
    For example, on September 9, the State of Iowa filed over 9,000 
counts of state child labor law violations at Agriprocessors, a 
meatpacking plant in Postville, Iowa.
    You are all undoubtedly familiar with Agriprocessors, which was the 
site of the one of the largest workplace immigration raids in U.S. 
history.
    The State alleges that 32 children, seven of whom were under the 
age of 16, were employed at the plant in violation of the prohibition 
against children working in meatpacking facilities.
    In addition, these children were exposed to dangerous chemicals, 
and children under 16 were found to be illegally operating power 
machinery, working during prohibited hours, and in excess of the hours 
allowed by law.
    These allegations also appear to be violations of federal law, but 
while the Immigration and Customs Enforcement (ICE) was out in droves, 
DOL has been missing in action.
    It is hard to claim adequate enforcement with that kind of a 
record, but I look forward to hearing from Mr. Passantino and our other 
witness on this issue.
    With that, I defer to the ranking member, Joe Wilson, for his 
opening statement.
                                 ______
                                 
    Mr. Wilson. Thank you for yielding, Madam Chair, and I join 
you in welcoming our witnesses here today.
    Every year, millions of teens work in part-time or summer 
jobs that can provide valuable work experiences and 
opportunities for teens to learn important work skills. I know 
firsthand by distributing newspapers and working in a service 
station. That work is not completely without risk, however, and 
unfortunately, each year there are young workers who are either 
injured or killed on the job. But even one injury is too many.
    The Department of Labor has an important role in helping to 
ensure that young workers have safe and appropriate work 
experiences. While the employment of young workers is essential 
to helping instill a solid work ethic and in teaching the value 
of a dollar, their collective safety must be the highest 
priority.
    I look forward to hearing from the Department today about 
their enforcement initiatives and compliance efforts which help 
to educate teens, parents, and employers about the hours of 
work and types of jobs that young people can perform.
    Youth employment has been an ongoing focus for the 
Department, and I commend the administration for its work in 
this area. Last year, the Department submitted a legislative 
proposal to Congress to strengthen the Department's ability to 
impose significant civil penalties for child labor violations 
that result in the death or of serious injury of a child, 
particularly where the violation is repeated or willful.
    I thank the Chairwoman for her important work on that 
proposal which she introduced in the House. I was pleased to 
join a senior Republican member of the full committee, Mr. Buck 
McKeon of California, as an original cosponsor of her bill, the 
provisions of which were enacted into law in May of this year. 
That has provided the Department with an additional tool to 
address serious child labor violations, decrease repeat 
occurrences, and to strengthen the overall enforcement of 
critical child labor laws.
    I look forward to hearing the testimony from all of our 
witnesses here today, and I thank the chairwoman for holding 
this hearing.
    I yield back the balance of my time.
    [The statement of Mr. Wilson follows:]

    Prepared Statement of Hon. Joe Wilson, Ranking Minority Member, 
                 Subcommittee on Workforce Protections

    Thank you for yielding Madam Chair, and I join you in welcoming our 
witnesses here today.
    Every year, millions of teens work in part-time or summer jobs that 
can provide valuable work experiences and opportunities for teens to 
learn important work skills. That work is not completely without risk, 
however, and unfortunately each year there are young workers who are 
either injured or killed on the job.
    Because even one injury is too many, the Department of Labor has an 
important role in helping to ensure that young workers have safe and 
appropriate work experiences. While the employment of young workers is 
essential to helping instill a solid work ethic and in teaching the 
value of a dollar, their collective safety must be the highest 
priority.
    I look forward to hearing from the Department today about their 
enforcement initiatives and compliance efforts, which help to educate 
teens, parents, and employers about the hours of work and types of jobs 
that young people can perform. Youth employment has been an ongoing 
focus for the Department and I commend the Administration for its work 
in this area.
    Last year, the Department submitted a legislative proposal to 
Congress to strengthen the Department's ability to impose significant 
civil penalties for child labor violations that result in the death of 
or serious injury of a child, particularly where the violation is 
repeated or willful. I thank the Chairwoman for her important work on 
that proposal, which she introduced in the House. I was pleased to join 
the Senior Republican Member of the Full Committee, Mr. McKeon, as an 
original cosponsor of her bill, the provisions of which were enacted 
into law in May of this year. This has provided the Department with an 
additional tool to address serious child labor violations, decrease 
repeat occurrences, and to strengthen the overall enforcement of 
critical child labor laws.
    I look forward to hearing the testimony from all of our witnesses 
here today, and I thank the Chairwoman for holding this hearing. I 
yield back the balance of my time.
                                 ______
                                 
    Chairwoman Woolsey. Thank you, Mr. Wilson.
    Now I have the honor on of introducing our witnesses. I 
will introduce them in the order that they will present.
    Let me talk first a little bit about the lighting system. 
We have a five-minute rule here. So when you start speaking, 
the green light goes on in front of you. When it gets to 
yellow, you have a minute left. And when it is red, the floor 
opens and your chair disappears. No, it doesn't. But it means 
it is time for you to tie it up. If you have more to say add 
that in to your responses when we ask questions.
    We only get five minutes also. So if we sit up here and 
give you a speech and don't ask our question, we have lost our 
five-minute time.
    First, I would like to introduce Alex Passantino, who is 
the acting wage and hour administrator for the Department of 
Labor. Alex has been with DOL since November, 2005. He 
previously served as the senior policy advisor to the assistant 
secretary for the Employment Standards Administration and as 
the deputy administrator for wage and hour.
    Mr. Passantino received his BA from Emery University and 
his JD from the University of Georgia School of Law.
    Sally Greenberg is executive director of the National 
Consumers League and co-chair of the Child Labor Coalition. She 
previously worked at Consumers Union, the nonprofit 
organization that is perhaps best known for publishing Consumer 
Reports. Prior to that, Ms. Greenberg worked at the Justice 
Department's Foreign Claims Settlement Commission. She earned 
her BA from Antioch College and her JD from the Catholic 
University School of Law.
    Norma Flores grew up as a migrant child farm worker, 
traveling over 3,000 miles every year. She began to work full 
time in the fields at 12 years old, working 70 hours a week. 
Because of this, Ms. Flores started school late, had to leave 
before the school year was over, and switched schools often.
    With the help of migrant programs, she was able to graduate 
from high school. She went on to college and received her BA 
from the University of Texas Pan American.
    David Strauss is executive director of the Association of 
Farm Worker Opportunity Programs. He is on the steering 
committee of the Child Labor Coalition and the National Farm 
Worker Alliance and is a member of the Board of Directors of 
the East Coast Migrant Head Start Project.
    Mr. Strauss has a masters of arts in Public Administration 
and a BA in political science.
    All right. Mr. Passantino.

  STATEMENT OF ALEXANDER J. PASSANTINO, ACTING WAGE AND HOUR 
               ADMINISTRATOR, DEPARTMENT OF LABOR

    Mr. Passantino. Chairwoman Woolsey, Ranking Member Wilson, 
and distinguished members of the subcommittee. Thank you for 
the opportunity to discuss the Wage and Hour Division efforts 
to promote compliance with the Fair Labor Standard Act's child 
labor provisions. As is detailed in my written testimony, the 
Wage and Hour Division staff's dedication to ensuring that the 
Nation's youth work safely and legally is second to none.
    Increasing compliance with the child labor provisions of 
the FLSA is a cornerstone of the agency's annual performance 
plan. Every onsite investigation, complaint, or directive, has 
a child labor component. Every low-wage initiative requires 
that investigators examine child labor compliance, regardless 
of whether the case is designated as a child labor case. 
Indeed, last year, 47 percent of the cases in which we found 
child labor violations were not set up as child labor cases.
    Child labor complaints are given the highest priority 
within the agency, and every Wage and Hour investigator is 
trained to look for child labor violations.
    We employ a number of tools to fulfill our mission of 
ensuring compliance. We conduct investigations in industries in 
which young workers are likely to be injured or killed on the 
job. We provide compliance assistance to raise awareness of 
child labor requirements, and we participate in partnerships 
with numerous Federal and State agencies.
    Our local offices undertake targeted child labor 
investigations in grocery stores, shopping malls, theaters, 
restaurants. We conduct low-wage initiatives in other 
industries, such as construction and agriculture. Each of those 
investigations requires the district offices to examine an 
employer's compliance with the FLSA child labor provisions.
    As a result of our enforcement efforts, Wage and Hour has 
levied fines against employers found in violation of the law. 
These fines are proportionate to the severity of the violations 
and exceeded $5,300 a case in the last fiscal year. In 
addition, we have secured future corporate-wide compliance and 
cooperative public awareness campaigns by many of the 
investigated employers.
    With over 7 million covered worksites in the United States, 
our efforts cannot be limited to enforcement. Rather, voluntary 
compliance with the child labor laws must be encouraged and 
supported. We have an active and effective compliance 
assistance program. Our managers and investigators speak 
regularly to employer-employee community and advocacy groups. 
We address student groups and work directly with school and 
work-permitting officials to educate issuing authorities on how 
to screen potential violations before the work actually begins.
    The centerpiece of our public awareness efforts is the 
YouthRules! Campaign. Since its inception in 2002, our Web site 
has received over 3 million views, and our PSAs have reached 27 
million radio listeners in 39 States, and generated 252 
newspaper articles with a readership of approximately 15 
million. We have had YouthRules! rallies in Philadelphia, New 
Jersey, Houston, and San Antonio.
    These efforts continue a longstanding Wage and Hour 
tradition of promoting safe and positive work experiences by 
educating teens, employers, educators and the public about the 
rules concerning young workers. Our goal is to increase 
compliance and prevent violations from occurring in the first 
instance, thereby safeguarding the lives and future of young 
workers.
    We employ the same tools to ensure compliance with the 
youth employment rules in agriculture. The nature of 
agricultural employment, its short duration, the remote 
locations, and the mobility of the work, pose particular 
enforcement challenges. As you all know, the standards for 
youth employment in agriculture have historically differed from 
nonagricultural employment.
    Wage and Hour is committed to providing the safe employment 
of youth in the agriculture industry. Our investigators who 
conduct investigations in agriculture are instructed to examine 
compliance with the provisions of all applicable statutes 
providing protections, including the child labor provisions.
    We have developed compliance assistance materials 
emphasizing occupational safety and health, disseminated public 
service announcements, and collaborated with other entities to 
educate parents and teens of age-appropriate task standards.
    Ensuring that young workers in this country have safe and 
appropriate early work experience has been, and continues to 
be, a high priority for Wage and Hour. As you mentioned, we 
were proud to have included in the President's budget for 
several years the Child Labor Penalty Enhancement, and we thank 
you for your support. The President signed that bill into law 
increasing the CMPs for serious injury or death to $50,000.
    We also continue to address youth employment through 
regulation and plan to send to OMB shortly a final rule 
updating the Youth Employment Provisions for the 21st century.
    Ensuring compliance in the Youth Employment Provisions is 
an integral part of every investigation. We believe that we 
have demonstrated success in these efforts but, as in every 
program, we look for opportunities to improve. Last year, we 
began working with an independent evaluator to assess our 
strategies and their effectiveness in increasing compliance 
with the FLSA child labor provisions. That study is ongoing, 
and we look forward to any recommended opportunities for 
improvement that may come.
    Although our measures of compliance are encouraging, the 
declines in workplace injuries and fatalities are the most 
significant indicators of improved working conditions for young 
workers in this country. According to NIOSH-provided 
statistics, in 2008, 38 youth under the age of 18 died from 
work-related injuries, a significant drop from the average of 
61 youth who were killed on the job during the years 1998 to 
2002. Injuries to young workers have also declined in recent 
years.
    These injury and fatality results demonstrate significant 
progress in addressing child labor violations. The actions and 
activities of many parties have contributed to these declining 
statistics, but many minors continued to be injured while 
working, and even one death of a working teen is one too many.
    The challenge of protecting the welfare of young workers is 
a shared responsibility. It rests with Federal and State 
officials, parents, educators, community-based and advocacy 
organizations, employers, and the young workers themselves. 
Wage and Hour remains committed to this challenge and will 
continue to promote legal employment opportunities for young 
men and women that are safe, positive, and do not distract from 
or interfere with their education.
    Thank you again for this opportunity to discuss this 
important issue. This concludes my prepared statement. I will 
be glad to answer any questions the committee may have.
    [The statement of Mr. Passantino follows:]

Prepared Statement of Alexander J. Passantino, Acting Administrator of 
          the Wage and Hour Division, U.S. Department of Labor

    Chairwoman Woolsey, Ranking Member Wilson, and distinguished 
members of the Subcommittee, thank you for the opportunity to discuss 
the efforts taken by the Department of Labor's (Department) Wage and 
Hour Division (WHD) to promote compliance with the Fair Labor Standard 
Act's (FLSA) child labor provisions. Let me begin by saying that WHD is 
committed to full and fair enforcement of all the laws under WHD's 
jurisdiction, but WHD staff's dedication to ensuring that youth in this 
country work safely and legally is second to none. As I will highlight, 
our accomplishments in strengthening child labor laws, raising public 
awareness of child labor requirements, and targeting industries in 
which young workers are likely to be injured or killed on the job have 
contributed to safer workplaces for young workers.
    Like all regulatory enforcement agencies, WHD employs a variety of 
tools and activities to enforce the law and achieve compliance. The 
agency's mission is to promote and achieve compliance--not just to 
identify violations after they occur, but particularly in instances in 
which the health and safety of workers are concerned, to prevent 
violations in the first instance. The agency's child labor activities 
and initiatives are far too numerous to list individually, so I will 
point out our key efforts and accomplishments over the past several 
years.
WHD Enforcement Priorities In Improving Child Labor Compliance
    WHD has prioritized its statutory enforcement responsibilities to 
maximize protections for the greatest number of workers, including 
those most vulnerable in the workforce--low-wage workers, immigrants, 
and young workers. The absence of a private right of action to address 
oppressive child labor underscores the importance of this agency's role 
in safeguarding young workers. For this reason, increasing compliance 
with the child labor provisions of the FLSA is a cornerstone of the 
agency's annual performance plan. Every on-site investigation--
complaint or directed--has a child labor component. Every low wage 
initiative--targeted for child labor compliance or targeted for other 
compliance reasons--requires that investigators examine child labor 
compliance. Child labor complaints, although not numerous, are given 
the highest priority within the agency. Every WHD investigator is 
trained early in his or her career to look for child labor violations. 
With each national child labor initiative, investigators gain both a 
renewed focus and specialized training.
    Each year, WHD regional and local offices plan and undertake child 
labor compliance initiatives in a variety of industries and businesses, 
such as grocery stores, shopping malls, theaters, and restaurants. 
These industries are among those in which the agency has historically 
found high levels of non-compliance with the child labor Hazardous 
Occupations Orders (HOs) and in which large numbers of young workers 
are traditionally employed. The agency's low-wage initiatives in other 
industries, such as construction and agriculture, also require district 
offices to examine an employer's compliance with the FLSA child labor 
provisions in conjunction with a minimum wage or overtime investigation 
or concomitant with the labor standards statutes that apply to 
agricultural workers.
    In recent fiscal years, WHD regional and district offices have 
developed child labor compliance initiatives in industries or 
establishments that had a history of child labor HO violations or that 
have a high likelihood that a young employee might suffer a work-
related injury or fatality. In fiscal year 2006, for example, WHD 
offices nationwide investigated discount department store operations to 
determine the level of compliance with the child labor provisions, in 
particular to determine their compliance with HOs that regulate paper 
balers, forklifts, and teen driving. In fiscal year 2007, district and 
regional offices continued their emphasis on reducing injuries and 
deaths to young workers by stressing compliance with the HOs. This 
year, the agency placed a particular emphasis on increasing compliance 
with HO No. 12, which regulates the loading and operating paper balers 
and compactors--a common and particularly hazardous piece of equipment 
found in many retail establishments and increasingly used in nursing 
homes, schools, and restaurants. The focus on HO No. 12 compliance will 
continue in fiscal year 2009 as offices develop their child labor 
initiatives for the upcoming fiscal year.
    Several key statistics support the agency's continued emphasis on 
child labor enforcement. First, the number of enforcement hours charged 
to child labor compliance has averaged 57,900 over the last seven years 
(from fiscal year 2001 through fiscal year 2007). This is not 
significantly different than the 58,080 average child labor enforcement 
hours recorded during the preceding seven years (from fiscal year 1994 
through fiscal year 2000).
    Second, as noted above, WHD investigators examine child labor 
compliance in all on-site investigations. In the last three years, 
approximately 47 percent of the investigations in which a child labor 
violation was identified occurred in an on-site investigation initiated 
under another statute or program area enforced by WHD--primarily in 
investigations initiated to determine FLSA minimum wage and overtime 
compliance.
    Third, the percentage of child labor cases in which a child labor 
violation is found has increased steadily over the last three years. 
Thirty-seven percent of child labor investigations in fiscal year 2005 
found child labor violations. By the end of fiscal year 2007, the 
percentage had increased to 40 percent, which suggests improvements in 
targeting establishments and industries with likely child labor 
violations.
    Fourth, WHD civil money penalty assessments per investigation have 
increased from $4,558 assessed per case in fiscal year 2003 to $5,303 
assessed per case in fiscal year 2007. The agency has not hesitated to 
levy fines against employers found in violation of the child labor 
laws--proportionate to the severity of the violations. Although we have 
been successful in collecting civil money penalties, as established in 
the examples below, the more significant and long-term results have 
been demonstrated in our ability to secure future corporate-wide 
compliance and cooperative public awareness campaigns by many of the 
investigated companies. Recent investigations include the following 
examples:
    <bullet> In August 2008, American Multi-Cinema, Inc., (AMC 
Theatres), headquartered in Kansas City, Missouri, paid $141,570 in 
child labor civil money penalties to resolve violations found in AMC 
theaters in several states. As part of the resolution, AMC Theaters 
produced a child labor public service announcement (PSA) on hazards 
associated with compactors and balers. The PSA is being shown in 
theatres nationwide as part of the company's First Look pre-feature 
entertainment program, and the expected audience is 8 million theater-
goers.
    <bullet> In January 2008, the Department obtained a permanent 
injunction in U.S. district court against Paragon Contractors Corp., a 
Hildale, Utah, contractor, for repeated violations of federal youth 
employment laws. The most recent investigation uncovered a 16-year-old 
working in roofing operations in violation of HO No. 16. The assessed 
civil money penalty of $5,280 was paid by the company.
    <bullet> In December 2007, Connecticut-based CVS Pharmacy Inc. 
agreed to pay $226,598 in child labor civil money penalties after a 
2007 investigation of CVS stores in New England and the Mid-Atlantic 
states found 78 minors illegally loading, unloading, or operating 
cardboard compactors and seven minors employed in violation of the FLSA 
time standards. CVS Pharmacy Inc. also agreed to ensure compliance with 
the FLSA at its more than 6,000 stores nationwide.
    <bullet> In July 2007, Pretzel King LLC, doing business as an 
Auntie Anne's franchisee in San Bernardino, Downey, Arcadia, Glendale, 
Northridge and Bakersfield, California, paid $51,500 in civil monetary 
penalties for allowing eleven 14- and 15-year-olds to work beyond the 
hours permitted by law and nine youths to be involved in prohibited 
baking activities. The stores also allowed 60 minors to operate freight 
elevators, dough mixers, and trash compactors, which are prohibited 
hazardous occupations for anyone under 18 years of age.
    <bullet> In 2007, Jim Barnes Enterprises Inc., a McDonald's 
franchisee, paid $86,500 in penalties after WHD determined that the 
firm allowed minors to perform hazardous duties, e.g., operating a 
trash compactor and frying, at a Mobile, Alabama, restaurant. In 
addition, a Piggly Wiggly franchisee, SCVS Inc., paid $30,000 in 
penalties after an investigation found 20 minors operating paper balers 
at two stores. These violations were uncovered as part of the WHD's 
Gulf Coast District Office local child labor initiative to increase 
compliance in grocery stores and restaurants.
    <bullet> In the summer of 2007, Caesars Utah LLC, doing business as 
Little Caesars Pizza in Sandy, Utah, paid a $110,800 civil monetary 
penalty for allowing minors to operate dough mixers and bake, among 
other activities in violation of the child labor provisions. The 
company also agreed to educate the public at large by creating a 
statewide public service campaign called Stop, Look and Listen.
    <bullet> In April 2006, Target Corporation paid $92,400 in civil 
money penalties for exposing young workers to hazardous machinery in 
violation of the FLSA child labor provisions. Twenty-nine minors in 
seven New York/New Jersey-area stores were found to have operated 
either power-driven hoisting apparatus or power-driven scrap paper 
balers, or in some cases, both. The company provided WHD with an 
outline of the steps it planned to take to ensure full compliance with 
all child labor regulations in the future.
    WHD believes its continued emphasis on child labor compliance has 
resulted in fewer child labor violations. The total number of 
investigations in which child labor violations were found is lower 
today than the total number in 2001, and the trend appears to be 
continuing. The number of minors found illegally employed last fiscal 
year (4,672) is nearly half of the number found illegally employed in 
fiscal year 2001 (8,818). The average number of minors found illegally 
employed per investigation has also declined from 4.2 in fiscal year 
2001 to 3.7 in fiscal year 2007. More importantly, the number of minors 
found employed in violation of a hazardous occupations order in fiscal 
year 2007 (1,000) was a reduction of more than half the number found 
working in a hazardous situation in fiscal year 2001 (2,040). While 
these statistics can be attributed in part to the overall drop in the 
number of teens in the workplace, these declining trends should also be 
taken as an encouraging sign that fewer young workers are employed in 
violation of the law.
    Children who work in agriculture are among the most vulnerable of 
the country's workers. The nature of agricultural employment, i.e., its 
short duration, the remote locations, and mobility of the work, pose 
particular enforcement challenges. Agricultural work is difficult and 
dangerous. For youth, the hazards are significant. The fatality rate 
for young workers in agriculture is nearly six times the rate in other 
industries. Nearly 60 percent of the youth fatalities in agriculture 
during 1998--2002 occurred to youths who worked on the family farms. 
The deaths of young family farm workers accounted for nearly a quarter 
of all of the young worker deaths that occurred in all industries 
during the same period.
    The standards for youth employment in agriculture have historically 
differed from nonagricultural employment. Under the FLSA, the child of 
a farmer can do any job, at any age, at any time, on a farm owned or 
operated by the parent of that child. The minimum age for employment is 
lower than for nonagricultural work. There is no minimum age for 
employment on small farms that the Act exempts from minimum wage 
requirements. The agricultural HOs prohibit only those youth under the 
age of 16, who are not working on his or her own family farm, from 
performing those tasks that the Secretary has found to be particularly 
hazardous for youth, as opposed to nonagricultural HOs, which apply to 
youth under the age of 18. Because youth are permitted to work in 
agriculture at a younger age, WHD is committed to promoting their safe 
employment in the industry. WHD investigators who conduct 
investigations in the agricultural industry are instructed to examine 
compliance with the provisions of all applicable statutes providing 
protections for agricultural workers, particularly wages, housing, and 
transportation, field worker safety and child labor provisions. WHD 
investigated four occupational fatalities that occurred in fiscal years 
2007 and 2008 involving teens under the age of 16 working in 
agriculture. Of those four cases, WHD found that only one involved a 
violation of the FLSA child labor provisions. The employer was assessed 
$11,962 in civil money penalties--the maximum allowable penalty at the 
time. In the remaining three instances, there was no employment 
relationship.
    Even in situations in which young workers are not subject to the 
FLSA child labor provisions, WHD has looked to methods other than 
enforcement to help young farm workers on family farms enjoy safe and 
positive work experiences. As I will discuss later, WHD has developed 
compliance assistance materials emphasizing occupational safety and 
health, disseminated public service announcements, and collaborated 
with other entities to educate parents and teens of ``age-appropriate'' 
task standards that parents can use to measure the capabilities of 
their children in performing agricultural work.
Compliance Assistance And Public Awareness Campaigns Affect Compliance
    Compliance assistance activities, which include providing clear and 
easy-to-access information on how to comply with federal employment 
laws, are key strategies in promoting voluntary compliance and should 
not be discounted. Parents, educators, employers, and young workers who 
are aware of the federal and state child labor requirements can make 
more informed decisions on when and where young people should work. 
Compliance assistance and educational activities are communicated in 
many ways, whether through speeches and presentations given to school 
groups or by PSAs. WHD uses every available means to provide compliance 
information to the public. WHD staff speak regularly to employer, 
employee, community, and advocacy groups. Local offices distribute 
self-audit materials and compliance guides to help employers evaluate 
their employment practices against the child labor laws. WHD 
investigators and managers work directly with school and work-permit 
officials to educate issuing authorities on how to screen potential 
violations before the work actually begins. With over 7 million covered 
worksites in the U.S., voluntary compliance with the child labor laws 
must be encouraged and supported.
    In May 2002, the Department launched the YouthRules! public 
awareness campaign, which quickly became the centerpiece of WHD's child 
labor compliance and public awareness efforts. The YouthRules! 
initiative is designed to increase public awareness of both federal and 
state rules concerning young workers; since its implementation, the 
initiative has provided an easily recognizable vehicle by which the 
public can obtain compliance materials. The web page, 
www.youthrules.dol.gov, provides a gateway to child labor compliance 
information on the internet. The site gets approximately 500,000 views 
a year in part because some 75 partners, associations, and governmental 
entities have linked or agreed to link their web site to the 
YouthRules! site. Most recently, Major League Baseball established an 
internet link from its web site to the agency's YouthRules! page.
    As part of this public awareness effort, WHD published and 
distributed a YouthRules! bookmarks and a YouthRules! Employer Pocket 
Guide in both English and Spanish. Similar publications were developed 
to educate employers and the public about the rules for youth 
employment in agriculture. Each year, WHD augments these printed and 
on-line YouthRules! materials with new fact sheets, guides, and other 
aides for compliance. WHD developed and posted self-assessment tools 
for restaurants, grocery stores, and other non-agricultural industries 
to help employers assess their compliance with the child labor laws. 
WHD designed posters with bold attention-getting colors and graphics to 
attract young readers. Agency field personnel developed a child labor 
compliance PowerPoint presentation geared towards a teenaged audience. 
The YouthRules! web site contains stickers that employers may place on 
dangerous equipment to warn teens and others that young workers are not 
permitted to operate certain equipment, such as forklifts and paper 
balers. Wage and Hour regularly updates this website to inform the 
public of new developments, such as the publication of new regulations.
    The Department also developed and disseminated a YouthRules! PSA in 
fiscal year 2004. That first year, over 6,000 radio stations received a 
taped PSA, and 10,000 newspapers received a YouthRules! news article, 
including ethnic media and newspapers. That year, the radio PSA played 
over 340 times on 197 radio stations with an audience of 27 million 
listeners in 39 states. The print article generated 252 newspaper 
articles in 20 states with a readership of approximately 15 million.
    In fiscal years 2005 and 2006, WHD's summer public awareness 
campaign focused on youth employed in construction, because of 
increasing numbers of young workers--primarily Hispanic--employed in 
that industry. As part of the campaign, WHD launched a new electronic 
seminar, ``Youth Working in Construction,'' which is available on CD-
ROM and on the YouthRules! web site. The seminar discusses the 
requirements for youth working in construction and concentrates on 
identifying the prohibited occupations in construction. A radio PSA and 
print article were issued to highlight the new seminar.
    WHD's first YouthRules! rally was held in 2003. The event, at a 
Philadelphia mall, was highly successful, so WHD expanded the concept 
in 2004 to include additional rallies in Houston and New Jersey. The 
rallies are now annual events in Houston and San Antonio. Participation 
in the events numbers in the thousands.
    In the last fiscal year, WHD updated the child labor PSAs and 
distributed them to more than 1,900 radio stations, including all 600 
Spanish radio stations in the U.S. and Puerto Rico. The new PSAs 
focused on youth in agriculture--the industry with the highest youth 
fatality rate. WHD continued public dissemination of the PSAs as part 
of this year's annual YouthRules! campaign.
    These diverse public awareness and compliance assistance activities 
continue a longstanding WHD tradition of promoting positive and safe 
work experiences by educating parents, teens, employers, educators, and 
the public at large about the federal and state rules concerning young 
workers. The goal, as stated earlier, is to increase compliance and 
prevent violations from occurring in the first instance and through 
those efforts, safeguard the lives and futures of young workers.
Partnerships Promote Child Labor Compliance
    Strategic partnerships provide opportunities and avenues to 
encourage compliance in communities and among employers. Business 
associations, unions, state governments, federal agencies, community 
groups, academia, and others have collaborated with WHD to promote 
public awareness and undertake compliance assistance activities. The 
added support of our partners enhances the scope and effect of both 
enforcement and compliance assistance. WHD's national partnership 
activities include (but are certainly not limited to) collaboration 
with the following organizations.
            Federal Network for Young Worker Safety and Health (FedNet)
    The Department is a founding member of FedNet, a partnership of 14 
federal agencies that share ideas, resources, and opportunities to keep 
young workers safe. This program strives to:
    <bullet> Increase awareness of young worker occupational safety and 
health among key community players and young workers as they enter the 
workforce;
    <bullet> Foster education, training, and outreach to promote young 
worker safety and health;
    <bullet> Enhance federal initiatives that create relationships with 
small businesses, trade associations, and other organizations that 
employ young workers; and
    <bullet> Promote resources that enhance employer compliance and 
knowledge of federal and state regulations related to young workers.
    FedNet accomplishments include safe summer job kick-offs, 
brochures, and safety tips. The collaboration available through FedNet 
enhances opportunities for WHD to disseminate materials and 
information.
            National Institute for Occupational Safety and Health 
                    (NIOSH) and the Occupational Safety and Health 
                    Administration (OSHA)
    WHD has a longstanding partnership with NIOSH in the areas of 
improving workplace safety for young workers and in the collection and 
interpretation of injury and fatality data, especially as it related to 
rulemaking efforts. In 1998, WHD provided funding to NIOSH to conduct a 
comprehensive review of scientific literature and available data in 
order to assess current workplace hazards and the adequacy of the 
current child labor HOs. The report, entitled(NIOSH report), was issued 
in July 2002. The NIOSH report, which makes 35 recommendations 
concerning the existing non-agricultural HOs and recommends the 
creation of 17 new HOs, was the impetus for the Department's April 2007 
Notice of Proposed Rulemaking (NPRM).
            National Institute for Occupational Safety and Health 
                    (NIOSH) Recommendations to the U.S. Department of 
                    Labor for Changes to Hazardous Orders
    In addition, WHD and OSHA have, for many years, been active members 
of the NIOSH-sponsored Federal Interagency Work Group on Preventing 
Childhood Agricultural Injury. This group, whose membership includes 
representatives of the U.S. Department of Agriculture (USDA), works to 
reduce young farm-worker deaths and injuries.
    Finally, WHD works with NIOSH and OSHA in a ``rapid response'' 
young worker fatality notification system that keeps all three agencies 
advised of youth workplace deaths.
            Young Workers Health and Safety Network (YWN)
    WHD has also worked for many years with the YWN, a subcommittee of 
the Occupational Health and Safety Section of the American Public 
Health Association, to promote compliance with the child labor 
provisions and to reduce occupational injuries to and workplace deaths 
of minors. The YWN--which describes itself as an informal network of 
public health professionals, advocates, and government agency staff--
includes individuals from academia, public health, labor law 
enforcement, health and safety consultation and enforcement, and labor 
organizations.
            Interstate Labor Standards Association (ILSA)
    WHD has an active collaborative relationship with ILSA, an 
organization of state labor department officials. As part of this 
ongoing coordination, WHD officials at the national, regional, and 
local organizations levels communicate with State labor departments on 
various child labor activities.
            U. S. Department of Agriculture (USDA)
    Given the higher fatality rates among young workers in the 
agricultural industry, WHD works with USDA on many issues. WHD's most 
recent collaboration with USDA involves the reinvention and 
streamlining of the tractor certification program. Under the child 
labor agricultural HOs, 14- and 15-year-olds may operate certain 
otherwise prohibited farm equipment after being properly trained and 
certified in the safe operation of the equipment. In most cases, 
agricultural extension service agents or agricultural vocational school 
instructors perform the training, testing, and certification based on 
requirements established by regulation. These requirements have become 
outdated, many of the training materials are no longer in print, and 
because of funding reallocations, not all states now provide the 
training or certification. The interagency agricultural HO Steering 
Committee has overseen the identification of the required skill sets, 
the development of a modern curriculum with multiple methods of 
delivery, the engineering of an electronic system that will register 
teachers, administer examinations, issue certificates, and monitor the 
operation of the entire process. WHD continues to work with USDA to 
ensure the completion of this important project.
            National Children's Center for Rural and Agricultural 
                    Health and Safety (NCCRAHS)
    NCCRAHS, based in Marshfield, Wisconsin, strives to enhance the 
health and safety of all children exposed to hazards associated with 
agricultural work and rural environments. NCCRAHS receives funding from 
NIOSH. WHD staff have served on the NCCRAHS steering committee and have 
helped develop and disseminate the North American Guidelines for 
Children's Agricultural Tasks (NAGCAT). NAGCAT is a collection of 
guidelines designed to assist parents and others in assigning age-
appropriate tasks for children ages 7 to 16 that live or work on farms 
and ranches across North America. The guidelines are based on an 
understanding of childhood growth and development, agricultural 
practices, principles of childhood injury, and agricultural and 
occupational safety. Voluntary use of the guidelines can help parents 
and others make informed decisions about appropriate tasks for youth.
            Equal Employment Opportunity Commission (EEOC)
    WHD works with EEOC to ensure that young workers experience a 
workplace free from discrimination and sexual harassment. WHD and EEOC 
jointly provide compliance assistance to employers of workers with 
disabilities--many of whom are under the age of 18.
Regulatory And Legislative Initiatives Have Strengthened Child Labor 
        Laws
    Because of changes in the workplace, the introduction of new 
processes and technologies, the emergence of new types of businesses in 
which young workers may find employment opportunities, the existence of 
differing federal and state standards, and divergent views on how best 
to balance scholastic requirements and work experiences, the Department 
has for many years been conducting an ongoing review of the criteria 
for permissible child labor employment. Some of the most significant 
accomplishments towards protecting working young men and women in this 
country are reflected in the recent revisions to the child labor 
regulations.
    On December 16, 2004, the Department published a final rule that 
amended the child labor regulations to implement statutory amendments 
to two existing HOs: the Compactors and Balers Safety Standards 
Modernization Act, affecting paper balers and compactors (HO No. 12); 
and the Teen Drive for Employment Act, affecting teenagers whose jobs 
may include driving on public roads (HO 2). The regulations also 
updated the types of cooking activities allowed for 14- and 15-year-
olds; revised the ``roofing'' HO to ban all work on or about roofs by 
youths under age 18; updated the definition of ``explosives'' in HO 1; 
and reduced paperwork in processing age certificates.
    As previously noted, the NIOSH report made recommendations 
concerning the existing non-agricultural HOs and recommended the 
creation of 17 new HOs. Upon receiving the NIOSH report, WHD conducted 
a detailed review and met with various stakeholders to evaluate and 
prioritize each recommendation for possible regulatory action 
consistent with the established national policy of balancing the 
benefits of employment opportunities for youth with the necessary and 
appropriate safety protections. The 2004 final rule addressed six of 
the NIOSH recommendations.
    In April 2007, the Department published an NPRM and an Advance 
Notice of Proposed Rulemaking (ANPRM) as part of its continuing efforts 
to update the youth employment regulations for the 21st Century. The 
current proposals would represent the most significant revisions to the 
child labor regulations in 30 years. The proposals would strengthen 
youth employment regulations to protect against workplace hazards, 
expand youth workplace opportunities that have been judged safe and 
permissible, update regulations to better reflect the modern workplace, 
and address many of the remaining recommendations from the NIOSH 
report. WHD is in the process of drafting a final rule based on the 
comments it received in response to the NPRM, and anticipates 
transmitting that rule to the Office of Management and Budget shortly. 
WHD continues to review the comments received in response to the ANPRM, 
and the remaining NIOSH recommendations, for potential future 
rulemaking.
    For the last several years, the President's budget has included a 
legislative proposal to increase the amount of civil money penalties 
that could be assessed for child labor violations that cause the 
serious injury or death of a young worker. On May 21 of this year, 
President Bush signed into law the Genetic Information 
Nondiscrimination Act of 2008 (GINA). Among other things, GINA amends 
the FLSA by increasing the civil money penalties that may be imposed 
for child labor violations resulting in death or serious injury. The 
legislation raised the maximum penalty to $50,000 for each violation 
resulting in the death of or serious injury to working youth. In cases 
where the employer's violation is repeated or willful, the maximum 
penalty was raised to $100,000. This new authority provides WHD with an 
important tool in securing compliance with the child labor provisions.
Improvements In Child Labor Compliance--A Continuing Priority For WHD
    As we have demonstrated, ensuring that young workers in this 
country have safe and appropriate early work experiences has been and 
continues to be a high priority for this agency. It is an integral part 
of every investigation, and WHD personnel nationwide are committed to 
this agency goal. WHD has used and continues to use every tool 
available--enforcement, compliance assistance, public awareness, 
partnership, regulation, and legislation--to promote compliance with 
the Nation's child labor laws. We believe that we have demonstrated 
success in these efforts, but as in every program, we look for 
opportunities to improve. Last year, the Department began working with 
an independent evaluator to assess our strategies and their 
effectiveness in increasing compliance with the FLSA child labor 
provisions. That study is ongoing, and we look forward to any 
recommended opportunities for improvements that may come. In examining 
our activities and accomplishments, however, we can cite several 
measures of success.
    WHD has conducted two national, statistically valid, investigation-
based compliance surveys of youth employed in the grocery store and 
restaurant industries. These are two industries that employ a high 
percentage of young workers. The first baseline survey was conducted in 
2000 to gauge the level of child labor compliance in full-service 
restaurants, quick-service restaurants, and grocery stores. A second 
investigation-based survey was conducted in 2004 to determine if the 
levels of compliance had changed. These two surveys were full on-site 
investigations that not only included interviews of the young workers, 
but also included interviews with their co-workers and employers. The 
investigation-based surveys allowed WHD investigators to establish 
coverage under the FLSA, review payroll records, and make conclusive 
determinations on whether the teens were employed in violation of 
applicable federal law.
    The 2004 investigation-based survey showed continued high levels of 
child labor compliance in the full-service restaurant and grocery store 
industries, similar to the levels found in 2000. The 2004 survey also 
demonstrated improvements in child labor compliance in quick-service 
restaurants in comparison to the 2000 survey results. WHD found 
significant reductions in the percentage of employers with repeat 
violations in all three industries. The 2004 survey investigations 
found that 91 percent of quick-service restaurants were in compliance 
with the FLSA child labor provisions and that 99 percent of youth 
employed in this industry were employed in compliance. The survey also 
found 73 percent of full-service restaurants were in compliance and 88 
percent of youth workers were employed in compliance. Finally, 80 
percent of grocery stores were in compliance and 95 percent of youth 
were employed in compliance in this industry. Ninety-six (96) percent 
of full- and quick-service restaurants and 88 percent of grocery stores 
were in compliance with the child labor HO provisions. The high 
percentage of youth employed in compliance and the increase in 
compliance among prior violators can be attributed to the compliance 
activities of the agency during the intervening year between the 
surveys. Those efforts continue today.
    The 2004 survey results are not the only indicators of improved 
compliance. In FY 2007, WHD completed an investigation-based compliance 
survey, i.e., the Youth Employment Survey (YES), to determine child 
labor compliance in four large national retail chains, Sears, Roebuck 
and Company (Sears); K-Mart; Wal-Mart Stores, Inc. (Wal-Mart); and 
Target Corporation (Target). All four companies had a history of child 
labor violations. Following the prior investigations, Sears and Wal-
Mart had entered into settlement agreements with WHD to promote future 
child labor compliance.
    Of the 67 establishments investigated, WHD found 82 percent (55 of 
67) in full compliance with the child labor provisions. All 
establishments, but one, were in compliance with the child labor hours 
standards. Eight-four (84) percent of the establishments were in 
compliance with the child labor HOs. In total, 40 child labor 
violations were found involving 36 minors; one child labor hours 
violation and 39 HO violations. Of the 39 HO violations cited, 38 
involved violations of HO No. 12 (balers). One HO No. 7 (forklift) 
violation was found. The findings in this initiative contributed, in 
part, to WHD's decision to place an emphasis on increasing compliance 
with HO No. 12 as part of its fiscal year 2008 performance plan.
    Sears was fully in compliance, with no child labor violations 
found. One Wal-Mart establishment was found in violation with a single 
HO No. 12 violation. Three Target establishments accounted for 14 
violations involving 11 minors. K-Mart has the highest rate of non-
compliance, with 7 stores having 24 violations involving 23 minors. 
These large corporate enterprises, that employ minors nationwide, have 
far fewer child labor violations and are far more aware of their 
obligations as a result of WHD's continued presence.
    While these measures of compliance are encouraging, the declines in 
workplace injuries and fatalities are the most significant indicators 
of improved working conditions for young workers in this country. 
According to NIOSH-provided statistics, 38 youth under the age of 18 
died from work-related injuries in 2007--a significant drop from the 
average of 61 youth aged 17 and under who were killed on the job during 
the years 1998 to 2002. Equally encouraging is the corresponding 
decline in youth fatality rates from a high of more than 3.5 per 
100,000 FTE in 1999 to approximately 2 per 100,000 FTE in 2006. 
Injuries to young workers have also declined in recent years, although 
not as sharply as fatalities. In 1999, NIOSH estimated that over 70,000 
14-to 17-year-olds were injured on the job seriously enough to warrant 
a trip to a hospital emergency room. By 2006, the estimate had dropped 
to 52,600.
    The agency believes these injury and fatality results demonstrate 
significant progress in addressing child labor violations. The actions 
and activities of many parties have contributed to these declining 
statistics, but clearly too many minors continue to be injured while 
working, and even one death of a working teen is one too many. The 
challenge of protecting the welfare of young workers is a shared 
responsibility. It rests with federal and state officials, parents, 
educators, community-based and advocacy organizations, employers, and 
the young workers themselves. WHD remains committed to this challenge 
and will continue to promote legal employment opportunities for young 
men and women that are safe, positive, and do not distract from or 
interfere with their education.
    Thank you again for this opportunity to discuss this important 
issue. This concludes my prepared statement. I would be glad to answer 
any questions.
                                 ______
                                 
    Chairwoman Woolsey. Ms. Greenberg.

  STATEMENT OF SALLY GREENBERG, EXECUTIVE DIRECTOR, NATIONAL 
     CONSUMERS LEAGUE, AND CO-CHAIR, CHILD LABOR COALITION

    Ms. Greenberg. Thank you, Madam Chair, for inviting me to 
testify here today.
    My name is Sally Greenberg, and I am executive director of 
the National Consumers League. We very much appreciate the 
subcommittee holding this hearing and asking this very 
important question, ``Child Labor Enforcement: Are We 
Adequately Protecting Our Children?''
    The National Consumers League believes that the answer to 
the question that the subcommittee is posing is, no, and that 
much more can and must be done to protect our young people from 
hazards and dangers they confront from the workplace. Every 10 
days in America, a young person is killed at work. Every day, 
more than 100 youth workers under the age of 19 are seriously 
injured or become ill from their jobs.
    My testimony focuses today on the Department of Labor's 
enforcement of the Federal child labor laws. I plan to make 
recommendations about reforms that I would like to see at DOL 
to strengthen protections for youth workers. I will also make 
recommendations for legislative reforms that we believe 
Congress should consider to help protect young people from 
hazardous work conditions.
    The National Consumers League is America's oldest consumer 
group, and our mission is to protect economic justice for 
consumers and workers. We are also co-chair of the Child Labor 
Coalition, or the CLC, which was established in 1989 and is a 
group of more than 30 organizations representing consumers, 
labor unions, educators, human rights and labor groups, child 
advocacy, religious and women's groups. The CLC's mission is 
simply to protect working youth here and abroad.
    Let me start by saying that NCL very much supports the 
notion that young people can learn and grow by working, as long 
as they are placed in jobs that are appropriate and safe.
    Much of my testimony is going to be based on findings of 
two reports on DOL's child labor enforcement that were released 
by the CLC and published by the National Consumers League, one 
in June 2005 and the other, September 2006.
    What these reports make clear is that enforcement of the 
child labor laws is no longer a high priority for DOL. Why do 
we say this? First, what many believe is the definitive 
document in upgrading and updating Federal child labor laws and 
enforcement, this is the NIOSH, or National Institute for 
Occupational Safety and Health, report from 2002. It was issued 
now over six years ago. NIOSH recommended that 38 hazardous 
occupation orders, or HOs, and HOs prohibit children from 
working in jobs that are particularly dangerous; they 
recommended in the NIOSH report that 38 of those HOs be 
revised. It took DOL five years to respond. And when they did, 
they proposed revising only five existing nonagricultural 
hazardous orders of the total of 38 that were recommended. They 
recommended no changes whatsoever in HOs for agriculture, the 
most dangerous work environment for children.
    Six years of inaction while children are maimed and injured 
on the job, we believe, is six years too many. DOL's refusal to 
protect working children by appropriately revising those 
hazardous orders is inexcusable, in our view.
    Secondly, the number of child labor investigations by DOL 
has declined drastically. For example, there was a 48 percent 
decline from 2004 to 2006. There were 2,606 child labor 
investigations in 2004, but only 1,344 in 2006. If we look back 
more than two years, the story is even worse. The number of 
child labor investigations conducted in 2006, 1,344. It was the 
lowest in the last 10 years.
    The second issue we have is that the time spent 
investigating child labor has declined, from 58,000 hours in 
2004 to 48,000 hours and change in 2006. If we look back more 
than two years, the story is even worse. From 2001, when Wage 
and Hour spent 73,000-plus hours doing child investigations, to 
2006, the time devoted to child labor investigations plummeted 
by 35 percent.
    There are an estimated 3.2 million working children in the 
United States. In other words, what our figures tell us is that 
there are only 28 DOL child labor investigators looking out for 
the children of this country, which number well over 3 million.
    Third, the penalties that DOL imposes, we believe, are far 
too low to provide sufficient deterrent to companies hiring 
underage workers. We are pleased to see that the GINA bill did 
increase penalties to $50,000 for each violation. We don't know 
whether the Department of Labor has imposed penalties with GINA 
in mind, but we believe the penalties at this point have been 
historically way too low.
    Fourth, DOL has almost no child labor enforcement in 
agriculture, and I believe my colleagues are going to address 
those issues, so I am going to quickly move to a couple of 
recommendations.
    And I do want to mention that we believe that DOL needs to 
focus on a couple of industries, including agriculture and
    meatpacking. We are particularly concerned about, 
Congresswoman, you mentioned the Pottsville, Iowa, case with 
Agriprocessors. We went out there to take a look around and 
talk to some of the workers, and Reed Mackey, who is here with 
me today, actually met with and interviewed a young man who had 
worked at the plant when he was 16, and he unrolled his sleeve 
and he showed him a stab wound that he had gotten while working 
on the job in the Agriprocessors plant. And the young worker 
said he was routinely cheated out of wages each week. He said 
he believed the plant supervisors knew that he was too young to 
work in the plant but looked the other way.
    We believe that there are probably a lot more of these 
kinds of violations going on, and we would like the Department 
of Labor to take a look at that.
    I will make further recommendations during the Q & A.
    [The statement of Ms. Greenberg follows:]

  Prepared Statement of Sally Greenberg, Executive Director, National 
                            Comsumers League

    Thank you for inviting me to testify today. My name is Sally 
Greenberg, and I serve as Executive Director of the National Consumers 
League. We very much appreciate the Subcommittee on Workforce 
Protections holding a hearing that asks, ``Child Labor Enforcement: Are 
We Adequately Protecting our Children?'' The National Consumers League 
believes that that answer to the question this Subcommittee hearing 
poses is ``No,'' and that much more can and must be done to better 
protect our young people from hazards and dangers they confront in the 
workplace.\1\
    Every 10 days in America, a young person is killed at work. Every 
day, more than 100 young workers under the age of 19 are seriously 
injured or become ill from their jobs.
    My testimony today focuses on the U.S. Department of Labor, or 
DOL's poor enforcement of the federal child labor laws and I will make 
recommendations about reforms I would like to see at DOL to strengthen 
protections for working children. I will also make recommendations for 
legislative reforms that we believe Congress should consider to help to 
protect our young people from hazardous work conditions.
    The National Consumers League, or ``NCL,'' is a private, non-profit 
advocacy group representing consumers on marketplace and workplace 
issues. Our mission is to protect and promote social and economic 
justice for consumers and workers in the United States and abroad. We 
are the nation's oldest consumer organization. The NCL is the cochair, 
along with the American Federation of Teachers, of the Child Labor 
Coalition, or ``CLC.'' The CLC, established in 1989, is a group of more 
than 30 organizations, representing consumers, labor unions, educators, 
human rights and labor rights groups, child advocacy groups, and 
religious and women's groups. The CLC's mission is to protect working 
youth and to promote legislation, programs, and initiatives to end 
child labor exploitation in the United States and abroad.
    Let me start by saying that the NCL very much supports the notion 
young people can learn and grow by working, as long as they are placed 
in a jobs that are appropriate and safe. We wish to focus, however, on 
workplace settings and jobs that are risky or dangerous for young 
people and what can be done to correct the loopholes in the law that 
expose youngsters to these workplace hazards.
    Much of my testimony is based on the findings of two reports on 
DOL's child labor enforcement released by the Child Labor Coalition and 
published by the National Consumers League, one in June 2005 and the 
other in September 2006, as well as more recent data on the same topic. 
I have provided copies of the two reports to the Subcommittee, and I 
ask that they be included in the record.
    What these reports make clear is that enforcement of the child 
labor law is no longer a high priority for DOL.
    Here is a quick overview that shows why this is so.
    <bullet> First, the number of child labor investigations by DOL has 
declined drastically. For example, there was a 48 percent decline from 
2004 to 2006--2,606 child labor investigations in 2004, but only 1,344 
in 2006.2 If we look back more than two years, the story is even worse. 
The number of child labor investigations conducted in 2006--1,344--was 
the lowest in the last ten years for which we have data, and may be the 
lowest in many decades.
    <bullet> Second, the time spent investigating child labor also 
declined: 58,220 hours in 2004, but only 48,005 hours in 2006. If we 
look back more than two years, the story is even worse. For example, 
from 2001, when the Wage-Hour division spent 73,736 hours doing child 
labor investigations, to 2006, the time devoted to child labor 
investigations plummeted by 35 percent. The 48,005 hours spent by DOL 
in 2006 investigating child labor violations may sound like a lot of 
time, but based on our calculations, this is roughly the equivalent of 
28 full-time employees doing child labor investigations exclusively.3 
There are an estimated 3.2 million working children in the United 
States, according to the federal government.4 In other words, each of 
these 28 DOL child labor investigators is in effect responsible for 
assuring a safe and healthy work environment for about 115,000 youth 
workers.
    <bullet> Third, the penalties that DOL imposes are too low to 
provide sufficient deterrent to companies hiring underage workers. 
While the law imposes a maximum penalty of $11,000 for each violation,5 
the average penalty in 2004 was only $718, less than 7 percent of the 
maximum penalty permitted. Two years later, in 2006, the average 
penalty was only $939, less than 9 percent of the maximum penalty. 
Here's a concrete example of low child labor penalties. In 2006 DOL 
found 29 children in six Target Corporation retail stores in New York's 
Hudson River Valley who had been working in jobs prohibited for 
children under age 18 because the work is so hazardous--operating 
power-driver scrap paper balers and operating power-driven hoisting 
equipment, like forklifts.6 DOL imposed a penalty of $92,400, or an 
average of $3,166 per child, not a lot for a multibillion dollar 
corporation. Another example dates from 2005. Wal-Mart committed child 
labor violations affecting 85 children in 24 stores, many involving 
youth who did jobs that DOL has determined to be particularly 
dangerous, such as operating chain saws, cardboard balers, and 
forklifts.7 DOL imposed $135,540 in penalties, or an average of $1,595 
per child. Given that Wal-Mart had $285 billion in annual sales, the 
$135,540 total penalty is a negligible amount--the equivalent of fining 
someone with an average salary a tiny fraction of a penny. The law says 
that the size of any child labor penalty that DOL imposes must take 
account of ``the size of the business of the person charged and the 
gravity of the violation,''8 but it is hard to see how DOL has done 
that in its investigations, given the very low amount of the average 
penalty imposed.
    <bullet> Fourth, DOL has almost no child labor enforcement in 
agriculture. Hundreds of thousands of children work in agriculture, 
yet, in 2006, just 28 of DOL's 1,344 child labor investigations--2 
percent--were in agriculture. In 2005 the number of child labor 
investigations in agriculture was even lower--just 25. These numbers 
contrast sharply with earlier years. In 1999, for example, DOL 
conducted more than five times as many investigations in agriculture--
142. What is particularly troubling about this poor enforcement record 
is that the risks of injury, illness, and death are greater for 
children working in agriculture than in any other jobs. For example, 
children age 15 to 17 working in agriculture have over four times the 
risk of fatal injury of children working in other industries.9
    Children under age 15 working on farms account for about three-
fourths of all work-related deaths for that age group.10 As for 
nonfatal injuries, hospital emergency room and workers' compensation 
data have suggested that youth injuries in agriculture tend to be more 
severe than injuries in other employments.11 What can DOL do to assure 
greater protections to working children? There are several key steps 
DOL should take.
    <bullet> First, DOL needs to devote more time and effort to 
investigating potential child labor violations. The equivalent of 28 
full-time child labor investigators for the entire United States is 
simply indefensible. The child labor provisions of the FLSA are unique 
in that only DOL can enforce them, whereas the FLSA's minimum wage and 
overtime pay provisions can be enforced not only by DOL, but also by 
aggrieved employees represented by lawyers in court. In other words, if 
DOL places less emphasis on enforcing the minimum wage and overtime pay 
provisions, employees have another route to address the problem--a 
private right of action. In 2006, for example, DOL filed only 3 
percent--143 of 4,207--FLSA lawsuits in federal court. But if DOL does 
not enforce the FLSA's child labor provisions, then no one else can.
    <bullet> Second, DOL needs to impose much higher penalties than in 
the past. Average penalties of less than $1,000 do not provide 
sufficient deterrent effect. There is no deterrent effect when a large 
company faces a nominal penalty after permitting underage youth to 
perform work forbidden under DOL regulations. DOL could easily change 
its regulations, or even just revise its internal procedures for 
calculating penalties, to achieve this result. Moreover, DOL should 
take employers who commit repeat child labor violations to court to get 
an injunction barring future violations, as the FLSA authorizes DOL to 
do. Any employer that violates such an injunction can be held in 
contempt of court and be required to pay DOL's costs of investigating 
and prosecuting to prove to the court that the employer has violated 
the injunction.
    <bullet> Third, DOL needs to update and strengthen its regulations 
that list jobs that are so hazardous that no child under age 18 (or in 
agriculture, under age 16) can do them. The government's premier job 
safety agency--the National Institute for Occupational Safety and 
Health, or ``NIOSH''--issued a lengthy report over six years ago 
recommending that more than half of these existing regulations be 
revised and that 17 new regulations be added, but DOL has acted on a 
paltry number of these recommendations, and adopted no changes 
whatsoever for agriculture, the most dangerous work environment for 
children. Six years of inaction, while children are maimed and injured 
on the job, are six years too many. DOL's refusal to protect working 
children by appropriately revising the hazardous orders is inexcusable.
    <bullet> Fourth, DOL needs to conduct targeted investigations of 
two industries in which child laborers may be most vulnerable to death 
or injury: agriculture and meatpacking. It has been nearly a decade 
since the Department of Labor's targeted Salad Bowl investigation found 
dozens of children, including many under the age of 10, helping harvest 
the nation's fruits and vegetables. And in the area of slaughterhouses, 
the recent investigation by the State of Iowa of the Agriprocessors 
plant in Postville, Iowa found dozens of minors working illegally in 
what is often considered to be one of the worst and most dangerous jobs 
in America. In August, NCL spoke to an Agriprocessors child laborer who 
had stabbed himself in the arm while on the cutting line and had been 
bandaged up and told to go back to work. The young worker said he was 
routinely cheated out of hours of wages each week. He also said that he 
believed his plant supervisors knew he was too young to work in the 
plant but looked the other way. Given that meat processing plants tend 
to attract an impoverished, mostly immigrant work force, the 
possibility that child laborers may be employed in slaughterhouse 
around the nation should be investigated by U.S. DOL with vigor.
    <bullet> Fifth, DOL needs to publicize its child labor enforcement 
activities much more aggressively. The most that DOL does typically is 
to issue an innocuous press release, and in many instances no publicity 
at all is given to child labor penalty cases. This approach needs to be 
changed drastically to make both employers and employees much more 
aware of the child labor laws, and the penalties that can result for 
violating those laws.
    <bullet> Sixth, DOL needs to revive the Child Labor Task Force that 
coordinated child labor enforcement efforts between state and federal 
inspectors. Increased coordination and communication between state and 
federal inspectors should increase the efficacy of enforcement efforts.
    What can this Committee and Congress do to strengthen the child 
labor law? We have several recommendations:
    <bullet> First, Congress must increase funding for DOL Wage and 
Hour inspectors. One of the primary reasons for the lack of child labor 
enforcement: Wage and Hour is grossly understaffed. Less than 750 
investigators are available to go out into the field and investigate 
labor violations. That translates to one investigator for every 10,000 
businesses. Kim Bobo, the executive director of Interfaith Worker 
Justice testified in Congress earlier this summer, that if the ratio of 
investigators to businesses that existed in 1941 held today, we would 
have 34,000 investigators--not less than 1,000. As a first step, NCL 
believes the number of inspectors should be doubled and Congress should 
mandate that child labor inspections become a greater priority of 
enforcement efforts. Congress should require DOL to report on its 
enhanced child labor enforcement efforts not less than 18 months after 
funding for the additional inspectors is provided.
    <bullet> Second, Congress should eliminate many of the special 
exclusions in agriculture that permit children as young as young as 12 
years old, and in some cases even younger, to work in the fields. It is 
unconscionable to allow 12 year olds to toil in over 100 degree heat 
and be exposed to toxic chemicals and pesticides; this gaping loophole 
in the law should be changed. By doing so, Congress would ensure that 
children working in agriculture would be subject to the same 
protections as children working in all other jobs. We are not talking 
here about children who work on their own parent's farms (who are not 
subject to the child labor law at all), but children who work for hire 
on farms, such as migrant and seasonal farmworkers. Rep. Lucille 
Roybal-Allard's ``Childrens Act for Responsible Employment,'' also 
known as the CARE Act, would close these shameful loopholes, leveling 
the playing field for hundreds of thousands of farmworker youth who are 
dropping out of high school in high numbers.
    <bullet> Third, because of the great hazards to children working in 
agriculture, Congress should strengthen the protections for children 
working on farms.
    Under existing law, the Secretary of Labor has the authority to 
declare which jobs are particularly hazardous for children, and the law 
provides a minimum age of 18 for such jobs--except in agriculture, 
where the minimum age is 16. For example, a young worker must be 18 to 
drive a forklift at a Wal-Mart warehouse, but that young worker could 
drive a forklift at a fruit and vegetable packing house at age 16--even 
though the dangers are very similar.
    <bullet> Congress should amend the law to raise the minimum age for 
doing particularly hazardous work in agriculture to 18, especially in 
view of the high incidence of deaths and injuries to children working 
in agriculture (as noted above). The CARE Act would remedy this problem 
as well. Fourth, Congress should impose minimum penalties for child 
labor violations--say at $500--to make employers more likely to comply 
with the child labor requirements.
    Thank you again, Madam Chair, for calling this hearing on whether 
young workers are being properly protected in America's workplace. The 
National Consumers League remains ready to work with you and your staff 
to see that children in this country are kept safe and are protected 
against the many dangers and hazards they may face in the workplace.
                                endnotes
    \1\ [Editor's Note: Not provided.]
    \2\ The data we have are based on the federal fiscal year, not the 
calendar year. Also, our data go only through 2006, because information 
on DOL's child labor enforcement is not on the DOL Web site; the data 
are available through a Freedom of Information Act request only--we 
have filed a FOIA request but have yet to receive the information.
    \3\ A full-time DOL employee with a 40-hour workweek for 52 weeks 
is paid for 2,080 hours per year, but with time off for vacations, 
holidays, and sick leave for medical appointments and illnesses, actual 
working hours in a year are probably closer to 1,700 hours. Thus, the 
48,005 child labor investigative hours in 2006 would require the 
equivalent of about 28 full-time employees.
    \4\ The National Institute for Occupational Safety and Health 
(NIOSH), relying on reports by DOL's Bureau of Labor Statistics and the 
Current Population Survey, estimates that 2.78 million 16- and 17-year-
old children were employed in 2000, as well as over 450,000 15-year-
olds, for a total of 3,230,000 youth workers. National Institute for 
Occupational Safety and Health (NIOSH) Recommendations to the U.S. 
Department of Labor for Changes to Hazardous Orders (May 2002), p. 3 
(``NIOSH Report'') (available at www.cdc.gov/niosh/docs/
NIOSHRecsDOLHaz/DOL-recomm.pdf). The NIOSH Report has no estimate for 
the number of youth workers under age 15. However, many children under 
this age do in fact work, as evidenced by DOL's Bureau of Labor 
Statistics estimate that 134 children under age 15 were killed on the 
job during the period 1992-1998 (see report on the Youth Work Force, 
revised November 2000, Chapter 6, p. 60 (Table 6.1), available at 
www.bls.gov/opub/rylf/pdf.
    \5\ This $11,000 maximum penalty was increased by FLSA child labor 
amendments included in the Genetic Information Nondiscrimination Act, 
or ``GINA'' (which took effect on May 21, 2008), with regard to 
particularly serious child labor violations. Any child labor violation 
that causes death or serious injury now has a maximum penalty of 
$50,000, which can be doubled where the violation is a repeated or 
willful violation. We don't know whether DOL has begun to impose these 
higher penalties, though they took effect over four months ago.
    \6\ The information about the Target Corporation child labor 
investigation comes from the Daily Labor Report of April 19, 2006, 
published by the Bureau of National Affairs in Washington, D.C.
    \7\ The information about the Wal-Mart child labor investigation is 
based largely on articles in The New York Times on February 12 and 21, 
2005.
    \8\ FLSA section 16(e), 29 U.S.C. 216(e).
    \9\ National Institute for Occupational Safety and Health (NIOSH 
Recommendations to the U.S. Department of Labor for Changes in 
Hazardous Orders (U.S. Department of Health and Human services, Public 
health Service, Centers for Disease Control and Prevention, May 2002), 
p.12, available at http://www.cdc.gov/niosh/docs/NIOSHRecsDOLHaz/
default.html.
    \10\ Ibid.
    \11\ Id. at p. 7.
                                 ______
                                 
    [Additional submissions by Ms. Greenberg follow:]
    [``Protecting Working Children in the United States,'' June 
2005, may be accessed at the following Internet address:]

        http://www.stopchildlabor.org/pressroom/clc%20report.pdf

                                 ______
                                 
    [``The Government's Striking Decline in Child Labor 
Enforcement Activities,'' September 2006, may be accessed at 
the following Internet address:]

 http://www.stopchildlabor.org/pressroom/CLC%20report%20Sept%202006.pdf

                                 ______
                                 
    Chairwoman Woolsey. Thank you. We will ask you for those 
recommendations.
    Ms. Flores.

         STATEMENT OF NORMA FLORES, FORMER CHILD WORKER

    Ms. Flores. Hi. Thank you for the opportunity to be able to 
share my story.
    My name is Norma Flores, and I am just one of the estimated 
hundreds of thousands of farm worker children working hard to 
feed Americans every day. My four sisters and I began to work 
in the farm fields since the age of 12 during our summers and 
any other school breaks we had, but we weren't strangers to 
farm work at that age. Full-time work now meant 70 hours, 
including weekends, for weeks at a time with no days off.
    Growing up in a family of many generations of farm workers, 
we thought life was supposed to this hard for everyone. Even 
though we saw both of our parents work hard year round and 
spend every penny carefully, we grew up poor. This taught us to 
value all the possessions differently. We knew if we wanted a 
nice pair of sneakers or ticket to see a new movie, those would 
be things that would have to be earned with a lot of hard hours 
of difficult manual labor. But this was life to us.
    We weren't informed of what rights we had or educated on 
what resources were available to help us. In the six years that 
I worked in the fields, I never saw an inspector out in the any 
of the fields that I was working in. Had I seen an inspector 
out there, I would have pointed out the lack of clean 
bathrooms, sometimes half a mile away, and the lack of places 
to wash our hands after handling plants covered in pesticides. 
I would have pointed out the missing drinking water and the 
containers with day-old water that we had to drink from at 
times. I would have pointed out the underage children allowed 
to work out there during regular school hours.
    Working in the cornfields of Indiana or in the asparagus 
fields of Michigan, it felt like we were at the mercy of 
contractors, with no one to look out for us and no one to turn 
to for questions or concerns. One of the most terrifying 
moments in my life was when an airplane accidently sprayed 
pesticide over the field we were working in. We ran out 
frantically across the street and immediately called our 
contractor. He simply apologized and asked us to go to another 
field to continue our workday. Who were we supposed to contact 
in case we got sick from the pesticides? How would we know?
    Farm labor is difficult and dangerous work. We are exposed 
to many chemicals that can damage our health, and migrant farm 
workers don't have benefits like health insurance to help us 
with expensive medical treatments.
    We are exposed to long hours and hot summer months with 
backbreaking labor. We work with sharp tools and heavy 
machinery that can cause a lot of damage if not used properly. 
Yet, as children, we are trusted to have the ability and 
maturity to handle all of these dangers carefully.
    I have seen too many times accidents in which children 
working beside me have gotten deeply cut and infected with 
sharp tools we work with or sick from the chemicals we work 
around.
    Children at age 12 would not be allowed to work making 
copies in air-conditioned office or cleaning floors at a local 
store, yet today, in America, children can legally work in 
harsh conditions out in the farm field for wages sometimes 
below minimum wage.
    Like all other Americans across the country, the migrant 
community is also concerned about today's economy. We see in 
the news how gas prices and the cost of living are on the rise. 
Yet what we don't see rising are our wages. Since Cesar Chavez, 
no major improvements in the life of migrant farm workers have 
been made. They continue to receive the same pay as decades 
ago.
    Growers claim that wages must be kept low in order for food 
prices to stay affordable, but at what price? Is it worth it to 
exploit children and hurt their futures so you won't have to 
pay cents for your groceries? Even this isn't saving Americans 
from the rising food price inflation.
    By giving fair wages, migrant families will no longer need 
their children to work to supplement their incomes, and these 
farm worker children can focus on their studies instead of 
worrying about pending family bills.
    I was blessed to have parents that put my education as a 
top priority and migrant youth programs that helped give the 
educational support I needed to get through my education. After 
overcoming many educational hardships, included interrupted 
school years and different State school systems, I was able to 
graduate from one of the Nation's leading high schools and 
complete college in 3\1/2\ years. Even though my family 
continues to work in fields of Iowa and Texas, I am proudly 
working in an international public relations firm in downtown 
Chicago.
    Other farm worker children aren't so fortunate. I believe 
at least two-thirds of migrant farm worker children drop out of 
high school before graduation from the pressures of migration, 
changing schools, and exhaustion. This dooms most of them to a 
life of poverty.
    Farm worker children continue to be an ignored injustice 
today in the United States, the world's greatest country. The 
information is out there, but many choose to look the other 
way. Just Google migrant farm worker children and you will get 
over 87,000 results. Exploitation of children, regardless if it 
is done legally or illegally, needs to stop today. It is more 
than doing what is right; it is also about changing the lives 
of these children and giving them the opportunity to make a few 
for themselves.
    [The statement of Ms. Flores follows:]

        Prepared Statement of Norma Flores, Former Child Worker

    My name is Norma Flores and I am just one of estimated hundreds of 
thousands of farmworker children working hard to feed Americans every 
day. My four sisters and I began to work in the farm fields since the 
age of 12 during our summers and any other school breaks we had, but we 
weren't strangers to farm work at that age. Full-time work weeks now 
meant 70 hours--including weekends--for weeks at a time with no days 
off. Growing up in a family of many generations of farm workers, we 
thought life was supposed to be this hard for everyone. Even though we 
saw both of our parents work hard year-round and spend every penny 
carefully, we grew up poor. This taught us to value all of our 
possessions differently. We knew if we wanted a nice pair of sneakers 
or a ticket to see a new movie, those would be things that would have 
to be earned with a lot of hard hours of difficult manual labor.
    But this was life to us. We weren't informed of what rights we had 
or educated on what resources were available to help us. In the six 
years that I worked in the fields, I never saw an inspector in any of 
the fields I was working in. Had I seen an inspector out there, I would 
have pointed out the lack of clean bathrooms sometimes half a mile away 
and the lack of places to wash our hands after handling plants covered 
in pesticides. I would have pointed out the missing drinking water and 
the containers with day-old water we had to drink from at times. I 
would have pointed out the under-age children allowed to work during 
regular school hours. Working in the corn fields of Indiana or in the 
asparagus fields of Michigan, it felt like we were at the mercy of the 
contractors with no one to look out for us and no one to turn to for 
questions or concerns. One of the most terrifying moments of my life 
was when an airplane accidently sprayed pesticides over the field my 
family and I were working in. We ran out frantically across the street 
and immediately called our contractor. He simply apologized and asked 
us to go to another field to continue our work day. Who were we 
supposed to contact in case we got sick from the pesticides? How would 
we know?
    Farm labor is difficult and dangerous work. We are exposed to many 
chemicals that can damage our health and migrant farmworkers don't have 
benefits like health insurance to help us with expensive medical 
treatments. We are exposed to long hours in hot summer months with 
back-breaking labor. We work with sharp tools and heavy machinery that 
can cause a lot of damage if not used properly. Yet as children, we are 
trusted to have the ability and maturity to handle all of these dangers 
carefully. I have seen too many times accidents in which children 
working beside me have gotten deeply cut and infected with the sharp 
tools we work with or sick from the chemicals we work around. Children 
at age 12 would not have been allowed to work making copies in an air-
conditioned office or cleaning floors at a local store, yet today, in 
America, children can legally work in harsh conditions out in the farm 
fields for wages sometimes below minimum wage.
    Like all other Americans across the country, the migrant community 
is also concerned about today's economy. We see in the news how gas 
prices and the cost of living are on the rise. Yet what we don't see 
rising are our wages. Since Cesar Chavez, no major improvements in the 
lives of migrant farmworkers have been made. They continue to receive 
the same pay as decades ago. Growers claim that wages must be kept low 
in order for food prices to stay affordable, but at what price? Is it 
worth it to exploit children and hurt their futures so you won't have 
to pay cents more for your groceries? Even this isn't saving Americans 
from the rising food price inflation. By giving fair wages, migrant 
families will no longer need their children to work to supplement their 
incomes and these farmworker children can focus on their studies 
instead of worrying about the pending family bills.
    I was blessed to have parents that put my education as a top 
priority and migrant youth programs that helped give the educational 
support I needed to get through my education. After overcoming many 
educational hardships including interrupted school years and different 
state school systems, I was able to graduate from one of the nation's 
leading high schools and complete college in three and a half years. 
Even though my family continues to work in the fields of Iowa and 
Texas, I proudly work in an international public relations firm in 
downtown Chicago.
    Other farmworker children aren't so fortunate. I believe that at 
least two-thirds of migrant farmworker children drop out before high 
school graduation from the pressures of migration, changing schools, 
and exhaustion. This dooms most of them to a life of poverty.
    Farmworker children continue to be an ignored injustice today in 
the United States, the world's greatest country. The information is out 
there, but many choose to look the other way. Just Google migrant 
farmworker children and you'll get over 87,000 results. Exploitation of 
children, regardless if it's done legally or illegally, needs to stop 
today. It's more than doing what is right. It's also about changing the 
lives of these children and giving them the opportunity to make a 
future for themselves.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Mr. Strauss.

STATEMENT OF DAVID A. STRAUSS, EXECUTIVE DIRECTOR, ASSOCIATION 
               OF FARMWORKER OPPORTUNITY PROGRAMS

    Mr. Strauss. Representative Woolsey and members of the 
subcommittee, thank you for inviting me to testify this morning 
on the conditions endured by children who work for wages in the 
farms, fields, and orchards of America.
    I also want to comment on the lack of enforcement of child 
labor laws in agriculture and recommend changes to the law that 
will gave the same protections to children working in 
agriculture as other children enjoy.
    My organization, the Association of Farmworker Opportunity 
Programs, is the national federation of organizations that 
conduct job training programs for eligible farmworkers 
throughout the United States. In the mid-1990s, our members 
noticed that in many places young children were preparing and 
harvesting crops. As they began looking into this, they 
realized that the Fair Labor Standards Act actually permits 
children as young as 12 and, in rare instances, as young as 10, 
to work in agriculture.
    I am not talking about family farms, where sons and 
daughters of farmers learn the business firsthand at a young 
age. I am talking about farms that employ large numbers of 
workers that aren't related to the owners.
    There are about 2.5 million people who earn their living, 
at least in part, by performing farm work in this country. 
Among them, tens of thousands migrate among various States each 
year, following the crops and seeking work wherever they can 
find it. Often, families travel from Texas or Florida to the 
upper Midwest, the Southeast, and the Northeast. In California, 
there are many workers that migrate long distances and often 
stay within that State.
    They are typically paid miserably low wages, receive no 
job-related benefits and have no job security. The average 
farmworker family earns less than $15,000 per year from all 
sources, well below the Federal poverty level.
    In these situations, they sometimes require their children, 
like Norma, to work to help to bring in more income. While 
there are no reliable statistics on children that work in the 
fields, our research indicates that there are about 400,000 
such young people below the age of 18.
    The FLSA requires that they not work during school hours 
and when school is in session. That is virtually the only 
restriction in Federal law, along with the prohibition against 
hazardous employment for children 15 and younger. That means, 
as Norma said, that a 12-year-old kid can work 12 or more hours 
a day during the summer, on weekends, or during the school 
year, as long as those hours are outside of school time.
    I have spoken with teenage children of migrant families who 
worked after school until midnight during a heavy harvest. That 
same child, if he worked in my office, could only work, at 
most, three hours during a school day. After school is out, and 
no more than 40 hours a week in the summer. And my offices are 
air-conditioned and comfortable; the fields are not.
    One of my staff recently completed a two-week visit to 
North Carolina's blueberry fields and found dozens of children, 
some as young as six, working in 105-degree heat all day long 
for several weeks at a time. California, though, for example, 
has heat illness prevention standards to protect child workers, 
but the Secretary of Labor at the Federal level has not issued 
a hazardous occupation for excessive heat.
    The toll on the children is real. Sometimes their families 
take them out of school before the end of the semester and 
return after the new school year begins. While in many places 
there are federally funded migrant education programs 
available, those programs aren't always congruent with those in 
the home State school, so children lose the credits they 
thought they were earning. They start the year behind and have 
to work doubly hard to catch up, even though they may be 
working in fields again after school.
    The results are predictable. Most migrant children, perhaps 
more than 67 percent, drop out of school well before high 
school graduation. Without a diploma and without good jobs, 
they often end up continuing the cycle of poverty their parents 
hoped they could break. It is a tragic waste that we cannot and 
should not allow to continue. Most of these children want to 
succeed. They know the meaning and value of hard work but are 
cut off from accessing the American Dream as soon as they drop 
out.
    While we believe the law is not sufficiently protective of 
child agricultural workers, my staff has observed violation of 
current law over and over. For example, the staff member I 
mentioned earlier visited 12 farms and on those 12 farms saw 11 
instances of the law being broken, where kids were under 12 
years old, working. Where were the Wage and Hour people there?
    This needs to stop. The Federal Government and the States 
need to make a renewed commitment to protecting our youngest 
workers. In addition, Congress should equalize the protections 
of these children with the rest of America's workforce. We 
support the CARE bill.
    Finally, we must dramatically increase the Federal 
commitment to the development of farmworker children. Legal 
protections alone won't assure their progress, so we have to 
invest in those actions we know will keep them in school and 
allow them to become as successful as Norma has.
    The reality is that, under our very noses, this country has 
a farm labor sector that resembles similar sectors in third-
world countries. It is a disgrace that the people who prepare 
and harvest our food often barely earn enough to purchase the 
food that their families need to survive. The least we can do 
is protect their children and give them a chance at the 
American Dream.
    [The statement of Mr. Strauss follows:]

Prepared Statement of David A. Strauss, Executive Director, Association 
                   of Farmworker Opportunity Programs

    Representative Woolsey and members of the subcommittee, thank you 
for inviting me to testify this morning on the conditions endured by 
children who work for wages in the farms, fields and orchards of 
America. I also want to comment on the lack of enforcement of child 
labor laws in the agriculture industry and recommend changes to the law 
that will give the same protections to children working in agricultures 
as other children enjoy. The Association of Farmworker Opportunity 
Programs is the national federation of nonprofit and public agencies 
that conduct job training programs for eligible migrant and seasonal 
farmworkers throughout the United States. In the mid-1990s, our members 
noticed that in many places young children were preparing and 
harvesting crops, often but not always alongside their parents or other 
family members. As they began looking into this, they realized that the 
Fair Labor Standards Act (FLSA) actually permits children as young as 
12 and in rare instances as young as 10 to work in agriculture. I'm not 
talking about family farms, where sons and daughters of farmers learn 
the business firsthand at a young age. I'm talking about working farms 
that employ large numbers of workers who aren't related to the owners. 
There are about 2.5 million people who earn their living, at least in 
part, by performing farmwork in this country. Among them, tens of 
thousands migrate among various states each year, following the crops 
and seeking work wherever they can find it. Often, families are 
traveling from Texas or Florida to the upper Midwest, Southeast and 
Northeast. In California, there are many workers that migrate long 
distances often within that state. They are typically paid miserably 
low wages, receive no job-related benefits, and have no job security. 
The average farmworker family earns less than $15,000 per year from all 
sources, well below the federal poverty level. In this situation, they 
sometimes require their children to work to help bring in more income. 
While there are no reliable statistics on children that work in the 
fields, our research indicates that there are about 400,000 such young 
people below the age of 18. The FLSA requires that they not work during 
school hours when school is in session. That is virtually the only 
restriction in federal law, along with a prohibition against hazardous 
employment for children 15 and younger That means that a 12 year old 
kid can work 12 or more hours a day during the summer, on weekends, or 
during the school year as long as those hours are outside of school 
time. I have spoken with teenage children of migrant families who 
worked after school until midnight during a heavy harvest. That same 
child, if he worked in my office, could only work at most three hours 
during a school day after school is out, and no more than 40 hours a 
week in the summer. And my offices are air conditioned and comfortable. 
The fields are not. One of my staff completed a two week visit to North 
Carolina's blueberry fields this past June and found dozens of kids, 
some as young as 6, working in 105 degree heat all day long for several 
weeks at a time. California, for example, has heat illness prevention 
standards to protect child workers, but the Federal Secretary of Labor 
has not issued a Hazardous Occupation Order for excessive heat.
    The toll on the children is real. Sometimes their families take 
them out of school before the end of the semester, and return after the 
new school year begins. While in many places there are federally funded 
migrant education programs available, those programs aren't always 
congruent with those in the home state school, so children lose the 
credits they thought they were earning. They start the year behind, and 
have to work doubly hard to catch up, even while they may be working in 
fields again after school. Their parents typically do not have much 
formal education and may speak English very poorly, so they aren't in 
the same environment of learning as most of their peers, nor can their 
parents afford tutors or other special aids. The results are 
predictable: most migrant children, perhaps more than 67%, drop out of 
school well before high school graduation. Without a diploma, without 
good job skills, they often end up continuing the cycle of poverty 
their parents hoped they could break. It is a tragic waste that we 
cannot allow to continue. Most of these children want to succeed, know 
the meaning and value of hard work, but are cut off from accessing the 
American Dream as soon as they drop out.
    While in my opinion, the law is not sufficiently protective of 
child agricultural workers, my staff has observed violation after 
violation of FLSA provisions. For example, one staff member saw 
children below the age of twelve working for pay with no sign of any 
inspector. The law was broken in 11 of the 12 farms she visited; where 
were the wage and hour people? This needs to stop. The federal 
government and the states need to make a renewed commitment to 
protecting our youngest workers.
    In addition, Congress should equalize the protections of these 
children with the rest of America's workforce. Amend the FLSA to 
protect children working in agriculture just the same as we protect 
children working in nearly every other industry. Representative Lucille 
Roybal-Allard introduced a bill (HR 2674) in June 2007 that would do 
just that. Finally, we must dramatically increase the federal 
commitment to the development of farmworker children. Legal protections 
alone won't assure their progress, so we have to invest in those 
actions we know will keep them in school and allow them to become as 
successful as Norma has. The reality is that under our very noses, this 
country has a farm labor sector that resembles similar sectors in third 
world countries. It is a disgrace that the people who prepare and 
harvest our food often barely earn enough to purchase the food that 
their families need to survive. The least we can do is protect their 
children and give them a chance at the American Dream. Thank you for 
your time and attention and I'll be glad to answer any questions you 
might have.
                                 ______
                                 
    [Additional submission of Mr. Strauss follows:]
    [``Children in the Fields,'' May 2007, may be accessed at 
the following Internet address:]

                  http://www.afop.org/CIF%20Report.pdf

                                 ______
                                 
    Chairwoman Woolsey. All right. Thank you.
    Now, you have heard the bells ringing. We have five minutes 
to get down to the floor to vote. So I am going to take my 
first round of questions. I am going to ask Ms. Greenberg to 
finish her testimony. Then I will ask my questions on the 
second round.
    When we come back, Mr. Kline will be the ranking member, 
and he will ask the next question, and then the rest of the 
committee will ask their questions.
    Ms. Greenberg, go ahead. We have to get out of here when we 
have one minute left. So you have about 3\1/2\ minutes for me.
    Ms. Greenberg. I am overwhelmed with gratitude that no 
Member of Congress has ever done that for me. I greatly 
appreciate it.
    We have a lot to say on this. We have recommendations for 
Congress, and that is increasing the funding for the DOL Wage 
and Hour inspectors. One of the primary reasons for lack of 
child labor enforcement is Wage and Hour is grossly 
understaffed, as you pointed out, Congresswoman.
    The representative from DOL talked a lot about the 
education work and sort of the marketing and going to cities 
and towns to talk about Wage and Hour laws, but there is 
nothing that can replace strong enforcement. We just have way 
too few investigators going out there. The agency has become a 
paper tiger, as a result. Employers know that, and so they will 
engage in violations of the law because they know the chances 
that they are going to get caught are very slim.
    Secondly, Congress should eliminate many of the special 
exclusions in agriculture. We certainly join Norma Flores and 
David Strauss in their very passionate and I think powerful 
statements on that. It is unconscionable for 12-year-olds to 
toil in 100-degree heat. So we would support your legislation 
certainly, and the CARE Act.
    Congress should amend the law to raise the minimum age for 
doing particularly hazardous work to 18 and close all of those 
loopholes.
    We also believe there should be a minimum penalty for child 
labor violation, say $500, to make employers more likely to 
comply with child labor requirements. As I said, I think the 
Department's Wage and Hour right now is a paper tiger. It 
really needs to be strengthened. Employers need to know that 
they mean business when they set these laws.
    So that concludes my testimony. I appreciate the time.
    Chairwoman Woolsey. All right. It will probably be 20 
minutes. So relax. Thank you for waiting for us.
    [Recess.]
    Chairwoman Woolsey. If everybody can get in their seat, Mr. 
Kline.
    Mr. Kline. Thank you, Madam Chair. And to our witnesses, 
thanks very much for being here today. Thanks for your 
patience. I am sure some of you have been here before and those 
of you who haven't know how this works. When we get called to 
vote, that trumps sort of everything we are doing on Capitol 
Hill, so I appreciate your patience.
    Mr. Passantino, let me start with you, if I could. Could 
you describe, give us a little more amplification on Wage and 
Hour's compliance assistance activities? Does Wage and Hour, 
for example, educate growers through their associations on the 
rules with respect to the employment of child workers? Is that 
part of what you do?
    Mr. Passantino. Yes. We have an active compliance 
assistance program. As I mentioned during my testimony, I guess 
the centerpiece for our youth employment compliance assistance 
is what is called the Youth Rules program. Through Youth Rules 
and through other outreach, including agricultural associations 
and parent groups, we speak to students where we are trying to 
educate everyone about their rights and responsibilities under 
the law so that they are aware, in the case of a teen, whether 
they are working in compliance, and to make employers aware of 
their obligations under the youth employment provisions.
    Mr. Kline. Could you give me some idea of the size of the 
effort? You have two people involved in this education thing, 
or 20, or how does that work? Give me a sense of the scope 
here.
    Mr. Passantino. I think it is fair to say that virtually 
everyone in the organization does some measure of it. It is 
primarily a manager function to provide compliance assistance, 
but our investigators provide compliance assistance as well. So 
there is not one specific person responsible for providing 
compliance assistance.
    Mr. Kline. I guess I am not sure about the size of the 
office. How many people are we talking about that would be 
engaged in this, since it is essentially a manager's function, 
you said?
    Mr. Passantino. There are about, I think, 200 managers, 730 
or so investigators; so somewhere between 200 and a thousand.
    Mr. Kline. Thank you. And speaking of investigators, does 
the Wage and Hour Division have a staff of investigators 
dedicated solely to investigations of child labor violations, 
or is there a crossover here? How does that work?
    Mr. Passantino. All of our investigators are trained to 
enforce all of the laws enforced by the Wage and Hour Division. 
That includes the Fair Labor Standards Act, which includes the 
child labor provisions, the Family Medical Leave Act, the 
Davis-Bacon Act, the Service Contract Act. All of our 
investigators are cross-trained in each of those statutes and 
enforcement of all of those statutes.
    Mr. Kline. Okay. Thank you. I have some familiarity with 
the farming sector. I have got an awful lot of farms in my 
district. My wife and I have a farm in southeast Minnesota, and 
I know it is very complicated in the farming business 
sometimes, trying to figure out who is in charge. I know that 
we have heard that there is a lack of inspections in the 
agricultural industry. We have heard some of that here today.
    I also know, though, that there are sometimes duplicative 
inspections that occur in the industry and it would appear--and 
this is my experience--that there are a number of government 
agencies which share oversight of the workplace conditions in 
the agriculture industry, including perhaps the State Labor 
Office, OSHA, EPA, in addition to the Wage and Hour Division.
    Would it be possible for the agencies which have 
jurisdiction in this industry, particularly in the areas of 
health and safety, to have some formal agreement to come 
together and determine who would conduct the inspections and 
share information? Has there been some effort to sort of corral 
that morass of agencies?
    Mr. Passantino. Sure. And we work with State agencies and 
we work with OSHA. When OSHA learns of, say, a child labor 
fatality, they will make a referral to us so that we can 
conduct our investigation. As far as----
    Mr. Kline. Excuse me, if I can interrupt. Do you then 
conduct an investigation and OSHA is out of it, or how does 
that work?
    Mr. Passantino. I believe that there are still going to be 
joint investigations or parallel investigations, and I suppose 
we can explore opportunities for coordinating with various 
agencies. But right now it is more of a notification-type 
process.
    Mr. Kline. It just seems to me that if there is a shortage 
of investigators, if you will, that it might be good to get 
some synergy out of this and not some duplication.
    Madam Chair, I see that my time is about to expire so I 
will yield back. Thank you very much.
    Chairwoman Woolsey. Thank you very much, Mr. Kline.
    Mr. Strauss, you have said it, and we understand that the 
Wage and Hour Division's investigations are generally started 
as a result of a complaint from someone. In your experience, 
are children apt to complain? Do they know how to complain? And 
what should be changed to make that more available to them.
    Mr. Strauss. My experience is, no, they would not complain. 
Frankly, neither would most adult farm workers complain about 
conditions. As Norma said, they don't know what their rights 
are, and if they did, they wouldn't know who to contact. How to 
cure that is a tough one.
    That is why we think really more targeted and better 
enforcement is needed. I think it is unrealistic to think that 
people who are working in the conditions they are working in on 
farms are going to say; tonight I think I will be calling a 
Wage and Hour inspector. They may not have any phones or they 
may have traveled to a place where information is not 
available.
    For example, when we had our staffers out in the blueberry 
fields of North Carolina, we didn't wake up--we weren't born 
knowing that that was a problem area. We found out about it. We 
believe that they can find out about it even more easily than 
we can, and can target those areas of agriculture at the right 
times of the year that are likely to have kids working. We 
would be glad to help the Department of Labor figure that out, 
but that would really make a difference. When the word goes out 
that they are on the case, you will see many, many fewer 
children under the age of 12 working on these farms.
    Chairwoman Woolsey. So that takes me right to you, Mr. 
Passantino. You said that there are public service ads running 
and telling kids and farm workers where to go and how to 
complain. If there is not enough enforcement officers, what 
good would that do in the first place? They go, and then what 
happens?
    Mr. Passantino. First, I guess I would like to clarify that 
we understand that there are not as many complaints in child 
labor and in agriculture, and that is why we dedicate so much 
of our directed enforcement resources into those two program 
areas for youth employment and for agriculture.
    I will also say, again, that with respect to youth 
employment in low-wage industries, when we do a low-wage 
targeted initiative in a particular area, part of that 
investigation is a determination of whether that employer is in 
compliance with the youth employment provisions in addition to 
minimum wage, overtime, those sorts of things.
    With respect to our staffing levels, the President's fiscal 
year 2009 budget request requested an additional 75 FTEs. We 
obviously have not gotten that request.
    So, yes, we acknowledge that we need additional staff to 
conduct investigations, but I don't think it is an accurate 
picture to just look at investigations that are coded in our 
system as primarily child labor. We look at child labor----
    Chairwoman Woolsey. You told us that when a lot of the 
complaints are child labor they don't come in as child labor, 
right?
    Mr. Passantino. I'm sorry?
    Chairwoman Woolsey. You said in your testimony that a lot 
of complaints are child labor that didn't start out child 
labor.
    Mr. Passantino. We don't get many complaints at all in 
child labor, but a lot of our cases----
    Chairwoman Woolsey [continuing]. Turn out to be child 
labor.
    Mr. Passantino. I think it is around 50 percent. A little 
bit less than 50 percent of the violations that we find of 
child labor laws take place in cases that did not originally 
begin as a child labor case.
    Chairwoman Woolsey. So let's take that and go to Ms. 
Flores, who absolutely would have benefited had there been some 
representation from the Federal Government at the properties 
you were working.
    Did you have any idea how to complain, or if you could, or 
would you have?
    Ms. Flores. No. There wasn't any information. When I 
started working, we worked mostly in the States of Indiana and 
Michigan. We were--there was no break room. There was no common 
area for us to work. We were--when we worked out in the field, 
that is where we ate our lunch. It was just lunchtime and 
everybody just sat around the bus, sat around, trying to find 
some sort of shade and just ate out there.
    So there was no actual public area for us to be able to 
post signs to be able to read any information. There was 
nowhere that said call this number for any questions, any 
concerns, any problems.
    It wasn't until we actually went to Iowa, which were the 
last couple of years where I worked at that, I actually saw 
some sort of area that had some sort of number. But other than 
that, there was nowhere to be able to see--nobody was out there 
to educate us to let us know these are your rights, these are 
the things. We just went out there and worked, which is why I 
say we were basically at the mercy of the contractors, whatever 
information they gave to us, whatever they told us.
    It is not like when you go to school that you get trained 
in your job and you get informed and you know everything that 
is going on. You just grow up in working in the fields, and 
that is just the way of life. So there was nowhere to go. And 
besides, a lot of growers share a lot of the same workers. So 
if you are a trouble worker, another grower isn't going to want 
to hire you if you are raising questions and raising concerns. 
That ends up putting your whole life, your whole family's life 
in jeopardy because if you don't have any work and nobody wants 
to hire you, then what else can you do?
    Chairwoman Woolsey. Right.
    Mr. Kline, do you have any other questions? Then I am going 
to keep going for just a little bit.
    Ms. Greenberg, there is some sense that through DOL, when 
they have defended their low penalty rate for child labor 
infractions, that actually the company's bad publicity, the bad 
publicity of a company or a grower, would be worse than the 
penalty. Do you see that as any truth to that? Does that work?
    Ms. Greenberg. Well, no company, I suppose, likes bad 
publicity. But if you asked the average American consumer which 
companies had gotten into trouble for child labor violations, I 
think you would get a blank stare back.
    So there is no real publicity given--that is one of the 
things we say in our testimony. There is no publicity given 
to--or effort to publicize that a company has engaged in these 
kinds of activities.
    We have companies that are involved in multiple violations 
of the child labor law. So I don't think that is a very 
effective deterrent. It could be if there were more publicity, 
but I just don't see it happening.
    Chairwoman Woolsey. All right. We aren't going to have any 
other members here. We have a very important meeting going on 
with our Democratic Caucus at this moment, and Mr. Wilson had 
another appointment.
    And Mr. Kline, would you like to make a closing statement?
    Mr. Kline. Thank you, Madam Chair. Again, I would just like 
to thank the witnesses and apologize, I suppose, on behalf of 
the institution--that is sort of the way we work here--and we 
have a couple of gigantic issues in front of us this week. So 
there is a great deal pulling us off to various huddles of two 
or three or more as we try to work through how we are going to 
deal with this.
    So thank you again for your testimony and for your answers 
and for your wonderful patience in helping us work through 
this. Thank you.
    Chairwoman Woolsey. Thank you, Mr. Kline.
    Ms. Flores, you laid it out perfectly. I mean, you painted 
the picture. Thank you so much and also thank you for getting 
through it and getting past the blockades. And you are going to 
make a difference in a lot of lives because of who you are. 
Thank you.
    And Mr. Passantino, your heart is in the right place and I 
really--I sound like President Bush; I am connecting with your 
heart. I don't mean it that way. You mean well, let me put it 
that way. But we need to do much, much more.
    But thank you and thank you all for your testifying today. 
What you have told us is very informative, and we must have a 
renewed commitment to the child labor laws and this 
subcommittee will be taking up child labor laws at the very 
beginning of the next Congress, I can assure you of that.
    With over 3 million children employed in the United States 
each year, they must be protected. And I believe that whatever 
we do to enhance the DOL and child labor laws, that we bring 
the farm worker kids right in with it, that we don't have two 
separate kinds of children. How ridiculous. So we will do 
better. We will work together and maybe you will all come back 
and help us put together the strengthening of DOL laws.
    So thank you very much. You have been very, very helpful.
    So as previously ordered, members will have 14 days to 
submit additional materials for the hearing record. Any member 
who wishes to submit follow-up questions in writing to the 
witnesses should coordinate with Majority staff within 14 days.
    Without objection, the hearing is adjourned.
    [The statement of Ms. Roybal-Allard follows:]

 Prepared Statement of Hon. Lucille Roybal-Allard, a Representative in 
                 Congress From the State of California

    Madam Chair, thank you for holding this hearing on the U.S. 
government's enforcement of child labor laws. The enforcement of our 
existing child labor statutes is insufficient at a time when our 
nation's youth remain very much at risk of suffering serious and even 
fatal injuries on the job. Though accurate data is scarce, estimates 
indicate that sixty to seventy children die annually in the 
workplace\1\ and another 230,000 are injured.\2\ Yet, the Department's 
Wage and Hour Division had thirty-five percent fewer employee hours 
dedicated to child labor investigations in 2006 than it did in 2001.\3\
---------------------------------------------------------------------------
    \1\ Child Labor Coalition, Protecting Working Children in the 
United States: Is the Government's Indifference to the Safety and 
Health of Working Children Violating an International Treaty?(June 
2005), p 9.
    \2\ Child Labor Coalition, Advocacy Group Releases New Information 
from States Showing Ongoing Child Labor Enforcement Woes (February 15, 
2006).
    \3\ According to testimony by Sally Greenberg, Executive Director, 
National Consumers League, at the House Workforce Protections 
Subcommittee hearing on September 23, 2008, the Wage and Hour Division 
(WHD) spent 73,736 hours doing child labor investigations in 2001 and 
48,005 hours doing so in 2006.
---------------------------------------------------------------------------
    The need to better protect working children is particularly evident 
in the agricultural sector. In fact, children working in agriculture 
are six times more likely to die on the job than youth working in non-
agricultural occupations.\4\ Agricultural work is more dangerous for 
youth in part because the law affords weaker protections for children 
working in this field compared to protections provided to children 
working in other industries.
---------------------------------------------------------------------------
    \4\ According to the prepared statement of Alexander Passantino, 
Acting Administrator of the Wage and Hour Division of the Department of 
Labor, at the House Workforce Protections Subcommittee hearing on 
September 23, 2008. According to Human Rights Watch, The Hidden Problem 
of Child Farmworkers in America: Facts and Figures (2000), while about 
eight percent of employed youth work in agriculture, about forty 
percent of workplace deaths and nearly half of workplace injuries 
suffered by minors occur in our nation's fields, farms and orchards.
---------------------------------------------------------------------------
    Under the 1938 Fair Labor Standards Act (FLSA), children working 
outside of agriculture are not allowed to perform tasks deemed by the 
Secretary of Labor to be particularly hazardous. However, that same 
statute allows youth aged sixteen- and seventeen-years-old to perform 
hazardous tasks in agriculture.
    This dangerous double-standard may have made more sense seventy 
years ago, when twenty-five percent of Americans lived on farms and 
when many of those children working in the fields were doing so on 
their families' lands. In 2008, however, only roughly two percent of 
Americans live on farms, and farm laborers are often migrant workers 
unrelated to the farm's owners. Working in farms and orchards sprayed 
with carcinogenic pesticides and groomed by dangerous machinery, child 
farmworkers are exposed to serious risk of injury, illness or death.
    The FLSA not only fails to ensure the safety of children when they 
are working in agriculture, it also fails to guarantee that these 
children have the same educational opportunities as children working in 
other industries. Other than prohibiting children from working during 
school hours, current federal law allows farmworker youth to work 
unlimited hours before and after school, and on weekends when school is 
in session. By contrast, on school days, fourteen- and fifteen-year-old 
children working in non-agricultural jobs are prohibited from working 
more than three hours a day or past 7:00 in the evening. Similarly, 
these children are prohibited from working a total of more than 
eighteen hours a week when school is in session.
    The result of this double-standard in federal child labor law is 
that non-agriculture child workers have time to complete homework and 
get sufficient rest, while child farmworkers do not, therefore often 
arriving to class exhausted and unprepared. This unfair and 
irresponsible federal approach to agricultural child labor has 
contributed to a fifty percent dropout rate among those youth who 
regularly perform farm work.
    I have introduced the Children's Act for Responsible Employment, or 
``CARE Act'', to bring labor standards for youth farmworkers in line 
with the standards that govern the employment of youth in industrial, 
office and all other settings. This legislation is created to protect 
children laboring in America's fields and orchards from needless 
threats to their health and educational achievement.
    Specifically, the CARE Act raises the standard age for agricultural 
work to sixteen, matching the standard set for all other industries. As 
in all other industries, under the bill the Secretary of Labor would 
issue regulations specifying the conditions under which fourteen- and 
fifteen-year-olds can work in agriculture so that their employment does 
not interfere with the child's schooling or health and well-being.
    The CARE Act also protects our children by strengthening safeguards 
against pesticide exposure and requiring increased reporting of 
pesticide use and violations. The bill guards against employers turning 
a blind eye to children working in their fields by setting a minimum 
fine and increasing the maximum penalties for child labor violations. 
And because there is currently little information on the challenges 
that child agricultural laborers face, the CARE Act will require a 
greater level of data collection from employers on injuries, illness 
and deaths of these young workers.
    Madam Chair, we must do everything in our power here at home to 
protect the rights, safety and educational future of all our children. 
It is tragic that children who work in agriculture, one of this 
country's most dangerous occupations, are less protected under U.S. law 
and have fewer educational opportunities than juveniles working in 
other safer occupations.
    This hearing represents a crucial first step to educating the 
public about the need for increased enforcement of our existing child 
labor laws and the unacceptable double-standard in our child labor 
laws. Thank you for your efforts to protect America's youth.
                                 ______
                                 
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
